<html>
<title> - AFRICAN ORGANIZATIONS AND INSTITUTIONS: CROSS-CONTINENTAL PROGRESS</title>
<body><pre>[Senate Hearing 109-900]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-900
 
   AFRICAN ORGANIZATIONS AND INSTITUTIONS: CROSS-CONTINENTAL PROGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 17, 2005

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
33-724                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                    MEL MARTINEZ, Florida, Chairman

LAMAR ALEXANDER, Tennessee           RUSSELL D. FEINGOLD, Wisconsin
NORM COLEMAN, Minnesota              PAUL S. SARBANES, Maryland
JOHN E. SUNUNU, New Hampshire        CHRISTOPHER J. DODD, Connecticut
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Cooke, Jennifer, G., co-director, Africa Program, Center for 
  Strategic and International Studies............................    26
    Prepared statement...........................................    28
Frazer, Hon. Jendayi E., Assistant Secretary for African Affairs, 
  Department of State............................................     3
    Prepared statement...........................................     6
Holt, Victoria K., senior associate, the Henry L. Stimson Center.    33
    Prepared statement...........................................    35
Martinez, Hon. Mel, U.S. Senator from Florida, opening statement.     1
Pierson, Hon. Lloyd O., Assistant Administrator for Africa, U.S. 
  Agency for Development.........................................    11
    Prepared statement...........................................    12

              Additional Material Submitted for the Record

Response of Hon. Jendayi Frazer to written questions submitted by 
  Senator Richard Lugar..........................................    45
.................................................................

                                 (iii)

  


                         AFRICAN ORGANIZATIONS
                           AND INSTITUTIONS:
                       CROSS-CONTINENTAL PROGRESS

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2005

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Mel Martinez 
(chairman of the subcommittee) presiding.
    Present: Senators Martinez, Feingold, and Obama.

            OPENING STATEMENT OF HON. MEL MARTINEZ, 
                   U.S. SENATOR FROM FLORIDA

    Senator Martinez. I call this subcommittee hearing to order 
and thank all of you for coming. This is a hearing of the 
Subcommittee on African Affairs of the Senate Foreign Relations 
Committee. We want to welcome to the subcommittee hearing this 
afternoon, all of you, especially my ranking member, Senator 
Feingold.
    Let me first thank our distinguished witnesses who have 
joined us today for coming. Last month we unexpectedly had to 
postpone the hearing because of the terrible storms that we had 
in Florida, and I had to return home to see about those. But I 
appreciate your understanding that situation and your 
flexibility in rescheduling it for today, and I want also to 
thank the ranking member for his flexibility and very much 
thank you for coming today.
    This afternoon our focus is on African organizations and 
institutions, looking at cross-continental progress. By cross-
continental progress, we are talking about the positive trend 
we have seen in recent years with African initiative, the 
commitment and consistency of African leadership, the 
development and demonstration of African resolve.
    As our panelists will discuss this afternoon, this 
initiative and this resolve have led to the formation of 
unprecedented and historic African-led organizations and 
institutions, most notably the establishment of the African 
Union. In just a few short years, the AU has emerged as the 
leading pan-African organization of states, comprised of all 
states in Africa with the exception of Morocco.
    At its core, the AU is about African leadership and African 
resolve. It is about the potential and promise for African 
nations to collectively increase good governance, democracy, 
stability, and economic growth. The shared goals and shared 
ambitions embodied in the AU are extremely valuable and 
commendable. I am confident the AU will increasingly play a 
leading role in addressing and advancing key priorities facing 
the continent.
    Equally positive are the efforts and initiatives being 
advanced by the regional economic communities. Initially 
established as economic bodies, several of the regional 
economic communities have launched conflict resolution and 
peacekeeping operations. For example, the Economic Community of 
West African States has played a central mediating role in 
nearly every civil war in West Africa since its creation.
    An additional positive development is the innovation being 
advanced by the New Partnership for Africa's Development. In 
its initial years, NEPAD has successfully identified projects 
and programs aimed at spurring economic growth, political-
economic integration, as well as good governance and security. 
Collectively, these African-led organizations and institutions 
hold great promise for the future.
    Together these organizations can truly advance and sustain 
good governance, democracy, stability, and prosperity. At the 
same time, however, these organizations and their leadership 
are encountering great challenges. Despite laudable and 
commendable success, these institutions are being tested. Their 
leaders are being tested. From institutional capacity to 
leadership difficulties and resource constraints, there are 
real hurdles.
    There are also credible concerns about the apparent 
multiplicity of organizations, their overlapping memberships, 
and seemingly conflicting areas of responsibility. These are 
hurdles and questions that require urgent attention for 
continental progress and advancement to continue, and that is 
what I encourage our distinguished witnesses to outline and 
discuss this afternoon.
    Africa is at a crucial and critical crossroads. The 
challenges and opportunities are immense. I encourage our 
panelists to address where things are going, where they are 
working, why they are working, look at where U.S. priorities 
and resources are assigned, and why, and finally outline 
prospects for the future and how we can help. Long-term 
sustainable success in Africa will undoubtedly depend on the 
strength and resolve of African leadership and African 
initiative. Our challenge is to provide the right kind of 
support and the right kind of assistance, targeted in 
meaningful, balanced, and welcomed areas.
    Now, I would like to briefly introduce our witnesses. We 
have two very distinguished panels before us. We will hear from 
two administration officials, Ms. Jendayi Frazer, Assistant 
Secretary of State for African Affairs, and Mr. Lloyd Pierson, 
Assistant Administrator of the U.S. Agency for International 
Development for African Affairs.
    In our second panel, we are pleased to have Ms. Jennifer 
Cooke, co-director of the Africa Program at the Center for 
Strategic and International Studies. We also welcome Ms. 
Victoria Holt, senior associate at the Henry L. Stimson Center 
here in Washington. We look forward to a lively discussion. We 
welcome all of you, and before turning it over to our 
witnesses, I would like to invite my distinguished colleague 
and ranking member for his opening remarks.
    Senator Feingold. Thank you, Mr. Chairman, first, for your 
excellent leadership of the subcommittee, and second, for your 
kind words about me and our work together. I will forgo a 
formal opening statement because we want to hear from you. We 
have four votes starting I think at 3:30.
    Senator Martinez. That is right.
    Senator Feingold. But let me just quickly say that I have 
been on this subcommittee for 13 years. I have been a chairman 
for those wonderful 18 months when we were in the majority, 
ranking member the rest of the time.
    I see these organizations as some of the most interesting, 
exciting, and challenging aspects of work on Africa. It holds 
great hope for the future, but there are enormous challenges 
and this is an important subject to take up, and I look forward 
to hearing the testimony and hopefully having time to ask some 
questions.
    Thank you, Mr. Chairman.
    Senator Martinez. Thank you.
    At this time we would call on Secretary Frazer for your 
opening comments.

 STATEMENT OF HON. JENDAYI E. FRAZER, ASSISTANT SECRETARY FOR 
              AFRICAN AFFAIRS, DEPARTMENT OF STATE

    Secretary Frazer. Thank you, Mr. Chairman and members of 
the subcommittee. Thank you for the opportunity to appear 
before you along side my colleague, Lloyd Pierson, at this 
hearing to discuss our work with the African Union and 
subregional organizations to advance freedom, peace and 
prosperity in Africa.
    It is my first Senate testimony as Assistant Secretary of 
State for African Affairs. I am very pleased to be here, 
especially on this important topic.
    I have a longer written statement, Mr. Chairman, and ask 
that I be allowed to submit it for the record.
    Senator Martinez. Without objection.
    Ms. Frazer. Thank you. I firmly believe there has never 
been a more auspicious time than now to consolidate the 
progress and promise of the continent. The emergence of an 
activist African Union with a modern, forward-looking agenda is 
one of the most important developments on the continent in 
decades. We have embraced a U.S.-Africa partnership that will 
allow the United States and the African Union to jointly 
advance our many shared key goals, including promoting good 
governance, social and economic development, combatting 
terrorism, and ending and preventing conflict. Most 
importantly, the African Union and some of the regional and 
subregional organizations in Africa are demonstrating 
increasingly effective leadership in advancing these goals.
    Helping to strengthen further those organizations to 
prepare them to be fully effective for the 21st century, so 
they can address Africa's challenge is vital to U.S. interests.
    Our cooperative efforts with the African Union and 
subregional organizations generally focus on the following key 
areas: First, diplomatic cooperation to prevent conflicts when 
possible and to resolve conflicts that have broken out; second, 
support for regional or subregional military interventions when 
there is no other alternative to end violence; third, 
assistance for capacity-building and institution-strengthening; 
fourth, support for efforts to promote trade, economic growth 
and development; and fifth, increasing cooperation in other 
areas ranging from counterterrorism to disease eradication to 
the promotion of good governance.
    I would like to very briefly review the efforts made by the 
African Union and subregional organizations, the support we 
have provided, and areas of needed future focus.
    The African Union and some of the subregional 
organizations, particularly the Economic Community of West 
African States, have joined in mitigating conflicts through 
peace support operations and diplomatic missions. African 
nations already provide close to 30 percent of United Nations 
peacekeeping forces worldwide, with 4 African countries--
Ethiopia, Nigeria, Ghana, and South Africa--among the top 10 UN 
troop contributors. In peacekeeping, African forces, rather 
than non-African ones, are more easily deployed in African 
states.
    In cases where political agreement and preparations for a 
UN mission oftentimes involve months of delay, a deployment by 
peacekeeping forces from the African Union or subregional 
organizations like ECOWAS is often a vital response tool. The 
United States supports African peacekeeping in two major ways, 
through direct assistance to ongoing operations and through 
programs to enhance the capacity of African peacekeepers.
    The Bush administration has assisted the African Union with 
operations first in Burundi and more recently in Darfur, Sudan. 
We also supported ECOWAS in Liberia in 2003. In Burundi, we 
supported the African Union's first operation, which was called 
AMIB, contributing some $11 million to the AU mission as it 
monitored peace agreements reached between the former Tutsi-
dominated government and its three main Hutu rebel groups. The 
United States has provided a major share of the African Union 
mission in Darfur, known as AMIS, funding over $160 million. We 
have also provided over $768 million in humanitarian relief in 
Darfur.
    In Darfur, the AU forces have much reduced large-scale 
organized violence in areas where they are deployed. Some 
violence continues as a result of banditry, rebel attacks, and 
janjaweed actions. But among those options that we must 
consider in Darfur is clearly the possibility of increased 
support by the United Nations or perhaps a transition to a UN 
mandate.
    We are consulting with the African Union and our partners 
closely on such options. We expect to support logistics, 
communications, training, and other assistance to the AU and 
the regional peacekeeping standby brigades. For example, over 
the past 4 years, we have provided over $11 million in 
equipment to set up an ECOWAS peacekeeping logistics depot in 
Freetown, Sierra Leone. Equipment from this depot has been 
vital in supplying ECOWAS and UN forces in Liberia, Cote 
d'Ivoire, as well as the AU forces in Darfur, and we are now 
working on provision of equipment for an AU depot as well. We 
are strengthening AU and ECOWAS communications capacity. The 
United States has provided over $10 million worth of computer, 
radio, and other communications links to help ensure that 
ECOWAS member states can communicate smoothly and that the AU 
forces have the radio equipment they need to be effective.
    We also support the efforts of the African Union to boost 
its counterterrorist capabilities. We will be working with our 
African partners to encourage the provision of adequate 
funding, personnel, and support to the regional 
counterterrorism training at the African Union's African Center 
for the Study and Research on Terrorism in Algiers, Algeria, 
and the AU's planned early warning center to counter terrorist 
threats.
    We are increasing our engagement with subregional 
organizations based on the regional economic communities. These 
regional organizations are recognized by the African Union as 
pillars of a continental architecture. They play a lead role in 
regional stability and will be the focus for regional African 
peacekeeping brigades of the AU's African standby force. Sub-
regional organizations can apply neighborly persuasion and even 
military force to stabilize a country before it slips into 
conflict. An important factor in the work of subregional 
organizations is leadership by a strong regional country, such 
as South Africa in the Southern African Development Community, 
or Nigeria in ECOWAS, two countries which combined have 50 
percent of sub-Saharan Africa's GDP. A strong lead nation seems 
to ensure a more effective subregional organization, although, 
at times, it may also inhibit open and thorough discussion and 
examination of alternative policies. We will support 
rationalizing Africa's subregional organizations to eliminate 
overlapping memberships and responsibilities and reduce costs 
of maintaining headquarters and staff. We will also support 
efforts by the AU and subregional organizations to speed up 
conclusion of the operational agreements. ECOWAS, the Economic 
Community of the West African States, has one of the 
continent's most effective military arms. Its deployments have 
served as precursors to UN peacekeeping missions in Liberia, 
Cote d'Ivoire, and Sierra Leone, with ECOWAS still retaining a 
presence in both Liberia and Cote d'Ivoire. In addition to the 
funds contributed to the ECOWAS efforts in Cote d'Ivoire, we 
contributed over $90 million to ECOWAS for its outstanding 
efforts in Liberia.
    In Southern Africa, we look to the Southern Africa 
Development Community to continue regional economic growth, 
stability, and prosperity; and we are looking at efforts to re-
engage with the SADC troika in the near future.
    In East Africa, our work with Kenya and Uganda on a north-
south peace agreement in Sudan is a model for what can be 
accomplished by U.S. engagement with Africa's subregional 
organizations. We are also increasing our work with the AU's 
New Partnership for Africa's Development, NEPAD, and the 
subregional organizations to support regional economic 
integration, good governance, and prosperity throughout the 
continent.
    Regional economic integration is crucial to increasing 
trade and investment and to breaking down barriers to trade and 
investment in order to drive growth and prosperity. In fiscal 
years 2002 to 2005, we have provided nearly $5 million to the 
African Union and to subregional organizations to advance 
regional trade and investment, to advance climate reform 
practices, to develop regional financial markets, and to 
provide technical assistance to increase trade and the free 
flow of goods, services, and capital.
    We provide over $100 million a year in funding for the 
African Development Bank, which promotes economic development 
and regional integration across Africa. The African Union and 
the subregional organizations have made major progress in the 
past 5 years. We will continue our work with the UN to help us 
strengthen the AU as an institution and as a continental actor 
and to support Africa's subregional organizations. We will also 
work to support commitments by African governments, 
organizations, and non-African partners to ensure stability, 
development, and good governance.
    In conclusion, our vision is that African nations and 
peoples can enjoy the fruits of peace, democracy, and 
prosperity and good health working through the African regional 
and subregional organizations. Mr. Chairman and members of the 
subcommittee, I look forward to answering any of your 
questions.


    [The prepared statement of Secretary Frazer follows:]

           Prepared Statement of Jendayi E. Frazer, Assistant
                 Secretary of State for African Affairs

    Mr. Chairman and members of the committee,
    I am delighted to have the opportunity to appear before you today, 
in my first Senate testimony as Assistant Secretary of State for 
African Affairs, to discuss our work with the African Union and African 
subregional organizations to advance freedom, peace, and prosperity in 
Africa.
    I firmly believe there has never been a more auspicious time than 
now to consolidate the progress and promise of the continent. The 
emergence of an activist African Union (AU) with a modern, forward-
looking agenda is one of the most important developments on the 
continent in decades. The AU offers a considerably more dynamic vision 
of the future than did its predecessor, the Organization of African 
Unity. The timing could not be better, coming as it does when we have 
embraced a U.S.-Africa partnership that will allow the United States 
and the AU to jointly advance our many shared key goals including 
promoting prosperity, good governance, social and economic development, 
and combating terrorism.
    Most importantly, the African Union and some of the regional and 
subregional organizations in Africa are demonstrating increasingly 
effective leadership in advancing these goals. Helping to strengthen 
further those organizations--to prepare them to be fully effective for 
the 21st century so they can address Africa's challenges--is vital to 
U.S. interests.
    Our cooperative efforts with the AU and subregional organizations 
generally focus on the following key areas:


    <bullet> Diplomatic cooperation to prevent conflicts when possible, 
and to resolve conflicts that have broken out.

    <bullet> Support for regional or subregional military interventions 
when there is no other alternative to end violence.

    <bullet> Assistance for capacity building and institution-
strengthening.

    <bullet> Support for efforts to promote trade, economic growth and 
development.

    <bullet> Increasing cooperation in a broad range of areas key to 
achieving peace and prosperity in Africa, ranging from counter-
terrorism, to disease eradication, to promotion of good governance.


    Let me review briefly the efforts made by the AU and the 
subregional organizations, the support we have provided, and areas of 
needed future focus:

                          CONFLICT RESOLUTION

    The African Union and some of the subregional organizations, 
particularly the Economic Community of West African States (ECOWAS), 
have joined in mitigating conflicts through peace support operations 
and diplomatic missions. African states have the capacity to staff 
peace support operations: many do not realize that African nations 
already provide close to 30 percent of United Nations peacekeeping 
forces worldwide, with four African countries--Ethiopia, Nigeria, 
Ghana, and South Africa--among the top ten U.N. troop contributors.
    African states and organizations quite reasonably prefer that 
African forces, rather than non-African intervention, be the first 
approach to conflict response on the continent and we support that. In 
fact, in cases where political agreement and preparations for a U.N. 
Mission oftentimes involve months of delay, a deployment by 
peacekeeping forces from the African Union or other subregional 
organization is often the only response tool available.
    The United States supports Africa peacekeeping in two major ways: 
through direct assistance to ongoing operations and through programs to 
enhance the capacity of African peacekeepers. In addition to U.S. 
support for global U.N. peacekeeping operations--where the United 
States currently provides 27 percent of the funding for such 
operations--the United States has assisted the African Union to stand 
up operations first in Burundi and more recently in Darfur, Sudan. We 
also supported ECOWAS in Liberia in 2003 and Sierra Leone in 1998-2000.
    In Burundi, we supported the AU's first such operation (AMIB), 
which was crucial in advancing the peace process and monitoring peace 
agreements reached between the former Tutsi-dominated government and 
three main Hutu rebel groups. That Burundi operation transitioned into 
a United Nations peacekeeping operation, which successfully paved the 
way for elections that have installed a new government and Parliament. 
We contributed some $11 million to the AU's Burundi effort, in addition 
to the money provided in support of the U.N. operation once the U.N. 
took charge. The AU did a good job in this first effort, but could not 
have succeeded in this very important endeavor without donor support.
    In Darfur, Sudan, the AU has taken the next big step by taking on 
the daunting task of managing the deployment needed to seek peace in 
Darfur. Its staff and officials clearly have learned important lessons 
from their Burundi experience and their capabilities have improved. 
Still, they cannot do this alone. International partners are necessary, 
and the United States has shown that it is such a partner. We have put 
forward a major share of the funding needed to bring peace to Darfur, 
including providing over $160 million in funding to support the AU 
deployment in Darfur. To date, we have provided over $768 million in 
humanitarian relief in Darfur. It is vital that the AU effort succeed, 
and we are helping to ensure that it does. Our logistics support for 
the African Union Mission in Sudan (AMIS) is key to its success, and we 
will not halt our PKO-funded support.
    Separately, we are providing expertise in ways that help enhance 
the AU's capacity. The AU welcomes the opportunity for its staff to 
develop cooperative working relationships with non-African governments 
and organizations, such as the U.S. and NATO. Through NATO, we and our 
NATO partners are providing training expertise and airlift that are 
vital to the AU operation.
    The African Union effort in Darfur has demonstrated why deployment 
of African troops is a viable option. It has also underscored the need 
for us to continue to work closely with the African Union to address 
continuing needs related to command and control that must be addressed 
to increase the effectiveness of AU interventions. The African Union 
showed that its majority Muslim (three of four major troop contributors 
have heavily Muslim forces--Nigeria--50 percent of its contingent, 
Gambia--95 percent, Senegal--90 percent; Rwanda is only 1 percent) 
forces are best suited to address the complex social and political 
issues, in a context in which virtually all of the population is 
Muslim. The result has been impressive: where the African Union forces 
are deployed, large-scale organized violence has largely diminished. In 
many cases, the African Union commanders are also engaged in mitigating 
local disputes and in facilitating urgently needed humanitarian relief. 
While violence continues as a result of banditry, rebel attacks, and 
janjaweed actions, the African Union forces are playing a crucial role 
to help bring about an end to violence. To help ensure greater peace 
and stability in Darfur, we must simultaneously increase our support to 
the African Union forces in Darfur (AMIS) while working closely with 
the AU and other donors to press the parties to make additional 
political progress and determine next steps. Among those options that 
must be considered is a possible increased support role for the United 
Nations, or perhaps a transition to a U.N. mandate. We are consulting 
with the AU and our partners closely on such options.
    The African Union's ongoing mediation of talks between the Sudanese 
government and the Darfur rebels also highlights the value of the AU's 
dynamic, holistic approach to conflict resolution. African Union 
political offices and missions also have had some success in dealing 
with crises and helping to advance development of democracy in the 
region. For example, the AU is committed to sustaining the peace 
process in Cote d'Ivoire, begun earlier by ECOWAS and to which, I might 
add, the United States contributed over nine million dollars.
    A key element of building capacity for the AU flows from our 
intended support for the AU's Africa Standby Force (ASF) and the 
national militaries that will make up that force. The AU plans for the 
ASF to provide both a rapid deployment capability to prevent mass 
violence or a longer-term force to sustain a peace agreement. Primary 
to our efforts is the African Contingency Operations Training and 
Assistance (ACOTA) program that provides training to African regional 
organizations and national peacekeepers. ACOTA training activities will 
continue with Ghana, Senegal, Kenya, Mozambique, Gabon and others, 
while adding additional partner countries via funding through the 
Global Peace Operations Initiative. As part of the worldwide GPOI 
effort, the United States expects to provide training to at least 
40,000 African peacekeepers over 5 years.
    Training peacekeepers is not enough, so we will also support 
logistics, communications, training and other assistance to the AU and 
standby brigades. For example, over the past 4 years we have provided 
over $11 million in equipment to establish and stock an ECOWAS 
peacekeeping logistics depot in Freetown, Sierra Leone. Equipment from 
the depot in turn has been vital in supplying ECOWAS and U.N. forces in 
Liberia, and Cote d'Ivoire, as well as AU forces in Darfur. The 
demonstrated value of that depot has shown that it will be worthwhile 
to provide equipment for the AU depot as well.
    Additionally we are strengthening AU and ECOWAS communications 
capacity. The United States has provided some $10 million worth of 
computer, radio, and other communications links to help ensure that 
ECOWAS member states can communicate smoothly, and that AU forces have 
the radio equipment they need to be effective. On the training front, 
we look forward to extending ACOTA multinational exercises to willing 
regional organizations in the near future and have recently provided 
support to peacekeeping training centers in Ghana and Mali.
    Our ties with the African Union are growing stronger. We currently 
coordinate with the AU office in New York, including on U.N. matters. 
Congressional action and an Executive Order by President Bush have 
placed the AU on the list of Public International Organizations, 
entitled to official G visas and civil immunity for official acts, and 
the AU plans to open a Washington office this year. We plan to assist 
the AU in that effort as much as possible. The AU office will expedite 
and enhance contacts between the AU and Congress and with executive 
branch agencies. The AU also plans to have the staff of its Washington 
office reach out to the African diaspora and to the business community, 
and engage groups with a focus on Africa.
    The Director of the Secretary's Policy Planning Staff, Dr. Stephen 
D. Krasner, hosted the first Planning Policy Talks with the AU on July 
29, 2005 to help identify policy challenges and capacity needs. The 
talks covered a broad range of topics under the headings of democracy 
and governance, the Millennium Challenge Account, post-conflict 
reconstruction, and counter terrorism. The talks, which we hope will 
occur biannually, provide another vehicle for policy exchanges and 
information exchanges on sharing how we can support capacity building 
within the AU and among the member states.
    We fully support the efforts of the AU to boost its counter 
terrorism (CT) capabilities. The AU has developed a strategy to create 
both an early warning center to counter terrorist threats and a 
regional CT training center as part of their CT center's mission. We 
support these goals, and are exploring ways to support these efforts 
with training opportunities, resources to increase CT cooperation in 
the region, and the provision of expert advice and guidance. We already 
have provided some $250,000, for example, to help set up an anti-money 
laundering and anti-terrorist finance assistance program in West Africa 
through West Africa's Inter-Governmental Anti-Money Laundering Group. 
Most important, we will be working with our African partners to 
encourage the provision of adequate funding, personnel and support to 
the African Center for the Study and Research on Terrorism in Algiers. 
The Department will be supporting a conference in February at the AU 
Center that will draw resources from trans-Saharan countries into the 
Center's mission.

           SUB-REGIONAL ORGANIZATIONS AND CONFLICT PREVENTION

    As we work with the African Union and subregional organizations to 
accelerate economic progress, we will support the development of 
African mechanisms that help to mitigate crises before they fester and 
erupt into conflict. Prevention and mitigation are ultimately far less 
costly to both the people of Africa and to their partners working with 
them toward a safe and free continent. The AU has several mechanisms to 
address this, including eminent persons who work to mediate crises; 
regional workshops on best practices in democracy and elections; and 
training and deployment of AU election monitors. As a result, the 
United States has the opportunity to work with the AU and subregional 
organizations to bring an end to conflict on the continent.
    The administration's approach to work with lead African mediators 
and multilaterally with the United Nations, African Union, and 
subregional organizations like ECOWAS has worked. As the member states 
demonstrate buy-in, I strongly support increasing our engagement with 
subregional organizations in the four distinct sub-regions of sub-
Saharan Africa--Central, Western, Eastern and Southern Africa. The 
subregional organizations based on the Regional Economic Communities 
(RECs) are recognized by the African Union as pillars of a continental 
architecture. They play a lead role in regional stability and will be 
the focus for regional African peacekeeping brigades of the AU's 
``African Stand By Force.''
    Sub-regional organizations can apply neighborly persuasion and even 
military force to stabilize a country before it slips into conflict. 
There are disadvantages, however, when affected states feel their 
neighbor has taken too much interest in their internal affairs. Another 
important factor in the work of subregional organizations is leadership 
by a strong regional country, such as South Africa in the Southern 
African Development Community (SADC) or Nigeria in ECOWAS (two 
countries which combined have 50 percent of sub-Saharan Africa's GDP.) 
A strong lead nation seems to ensure a more effective subregional 
organization, but at times could also inhibit open and thorough 
discussion and examination of alternative policies.
    We will support efforts by the AU and subregional organizations to 
speed up conclusion of their operational agreements, to clarify 
responsibilities and reduce costs while sharpening their focus.
    The activities of three of the more developed subregional 
organizations illustrate issues they are tackling and the character of 
our engagement and partnership:

         ECOWAS--THE ECONOMIC COMMUNITY OF WEST AFRICAN STATES

    Nigeria plays a lead role, with French-speaking Senegal senior 
among ECOWAS's Francophone members. ECOWAS has one of the continent's 
most effective military arms. Its deployments have served as precursors 
to U.N. peacekeeping missions in Liberia, Cote d'Ivoire, and Sierra 
Leone, with ECOWAS still retaining a presence in both Liberia and Cote 
d'Ivoire. President Obasanjo of Nigeria has both a role within ECOWAS 
and within the African Union (as Annual Chair of the AU Assembly), 
which has illuminated some policy disconnects, particularly between the 
AU's Peace and Security Commission and ECOWAS, and between Nigeria and 
the office of the ECOWAS Executive Secretary. In addition to the funds 
contributed to the ECOWAS effort in Cote d'Ivoire, we contributed over 
$19 million to ECOWAS for its outstanding effort in Liberia.

            SADC--THE SOUTHERN AFRICAN DEVELOPMENT COMMUNITY

    South Africa, the economic powerhouse of the continent, is the 
dominant player in SADC. The United States and South Africa have a 
shared interest in promoting peace and stability on the continent. Our 
already strong bilateral relationship is expanding to include greater 
military-to-military cooperation, including planning for training for 
peacekeeping operations. Our Ambassador to Botswana, where SADC has its 
headquarters, also serves as the Secretary of State's Representative to 
SADC and works closely with the organization. An effective SADC, 
working to enhance peace, stability, and prosperity in the continent is 
vital to U.S. national interests.

         IGAD--THE INTER GOVERNMENTAL AUTHORITY ON DEVELOPMENT

    Somalia continues to be a significant concern for the IGAD member-
states of East Africa, particularly Ethiopia, Djibouti and Kenya. The 
government of Kenya, under the auspices of IGAD, chaired the Somalia 
National Reconciliation Conference, which concluded in October 2004 
following the formation of a national parliament, election of a 
transitional president and formation of a transnational cabinet--
collectively known as the Somalia Transitional Federal Institutions 
(TFls). Although Somali parties remain divided by key issues that have 
prevented further progress in establishing the TFls inside Somalia, 
IGAD member states continue to play a significant role in the ongoing 
political process. The international community, including the United 
States, is urging Somali leaders to reach a consensus agreement on 
these key issues, including how to address continued insecurity 
throughout Somalia, through dialog at the cabinet and parliamentary 
levels. The United States has contributed some $750,000 to IGAD's 
efforts to bring peace to Somalia. There is much yet to be done, but we 
will continue to coordinate our engagement in Somalia with our regional 
and international partners to support the establishment of effective 
governance in Somalia. IGAD also played a key mediation role in the 
Sudan North-South peace process.

        ENGAGING WITH AU INSTITUTIONS ON SUSTAINABLE DEVELOPMENT

    Africa is not a continent of conflicts, despair, and disease. The 
bulk of the continent is not in crisis. Democratic elections are 
increasingly the norm, and economic growth is at its highest levels in 
nearly a decade. We are deeply engaged with African countries and 
institutions to support Africa's efforts to consolidate and build on 
the remarkable progress of recent years, as well as to prevent the 
outbreak of new conflict. Most of the more than three billion dollars 
in assistance that we provided to Africa last year supported bilateral 
programs at the country level. We also are working with the AU's New 
Partnership for Africa's Development (NEPAD) and the RECs in support of 
their programs to promote regional economic integration, good 
governance, and prosperity throughout the continent.
    The RECs have a major role to play, not only in peace support 
operations, but also in promoting the regional economic integration 
that is so crucial to increasing trade and investment, which will drive 
growth and prosperity. In many respects the RECs have not advanced as 
far on the economic front as on the peace and security front, and 
further progress could be enhanced were there to be some 
rationalization of the current overlapping REC structure. However, we 
are seeing sustained efforts to break down barriers to trade and 
investment through, for example, customs unions and trade agreements by 
the Common Market for East and Southern Africa (COMESA), the East 
African Community (EAC), and others. Another example is the West 
African Economic and Monetary Union (WAEMU). Historically this was just 
a monetary union made up of the countries with currencies tied to the 
French Franc. In recent years, however, these countries have begun to 
work together in other ways as well. In fiscal year 2003, the United 
States contributed $250,000 to help the WAEMU improve its member 
countries' government debt issuance practices, and in recent years, 
FY2002-FY2005, we have provided nearly $5 million to the AU and to 
subregional organizations--WAEMU, COMESA, and the EAC--to advance 
regional trade and investment climate reform practices, develop 
regional financial markets, and provide technical assistance to 
increase trade and the free flow of goods, services and capital.
    At the continent-wide level, we provide over $100 million a year in 
funding for the African Development Bank, which in turn promotes 
economic development across Africa, giving special attention to 
national and multinational projects that promote regional integration.
    We hope to increase our engagement with both the AU and RECs to 
help build their capacity to accelerate economic growth and poverty 
alleviation through strategically targeted financial and technical 
support for their programs to promote trade, investment climate reform, 
transparency and good governance, sound management of natural 
resources, and social development.
    The United States and its G8 partners have an ongoing dialog with 
NEPAD and have made far-reaching commitments to develop enhanced 
partnerships with those countries that demonstrate commitment to AU/
NEPAD's principles of sound economic, political, and social governance. 
In addition to our many bilateral programs that support the goals and 
objectives of the AU and NEPAD at a country level, we are supporting 
the realization of NEPAD programs such as the Comprehensive African 
Agricultural Development Plan and NEPAD's efforts to facilitate and 
accelerate regional infrastructure development. Through the Africa 
Partnership Forum, which includes all of the major African institutions 
as well as development partners, we are developing a process to hold 
each other mutually accountable for fulfillment of our many respective 
commitments.
    Africans themselves are also increasingly seeking to hold each 
other accountable. The NEPAD African Peer Review Mechanism (APRM) is a 
bold undertaking by and for African countries to review a country's 
economic, political and corporate governance in a manner based on clear 
standards and criteria that reflect best practice. Nearly two dozen 
countries have signed up to be reviewed, and the first two reviews, of 
Ghana and Rwanda, including associated national action plans to address 
shortcomings, have been discussed at high levels and should be 
finalized by the end of the year.
    Working with the AU through enhanced relationships, and with 
stronger subregional organizations, I believe we can secure the 
progress already underway. The AU and the subregional organizations 
have made major progress in the past 5 years, and the United States has 
made a major contribution to advancing stability and prosperity in 
Africa. Yet more needs to be done. We will continue our efforts to work 
with the U.N. to help us strengthen the AU as an institution and as a 
continental actor, and to support Africa's subregional organizations. 
We will also work to ensure that Africa and its people have a future 
which is not shadowed by images of conflict, refugees and corruption, 
but which, rather, is buoyed by commitments by African governments, 
organizations and non-African partners to ensure stability, development 
and good governance. Our vision is that African nations and peoples can 
enjoy the fruits of peace, democracy, prosperity, and good health. With 
your help, we will help make that vision a reality.

    Senator Martinez. Madam Secretary, I thank you very much 
for your remarks.
    We also welcome the distinguished Senator from Illinois to 
the hearing.
    We want to now hear from Administrator Pierson.

STATEMENT OF HON. LLOYD O. PIERSON, ASSISTANT ADMINISTRATOR FOR 
       AFRICA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Pierson. Thank you very much, Mr. Chairman, Senator 
Feingold, Senator Obama. I have a brief opening statement I 
would like to read, but a longer statement for inclusion in the 
record.
    Senator Martinez. Your statement will be included in the 
record. Thank you.
    Mr. Pierson. I am pleased to have the opportunity to appear 
before you once again as Assistant Administrator for Africa.
    At the request of the subcommittee, I am here to update you 
on our work at the United Nations Agency for International 
Development to support development and peace and security 
efforts in sub-Sahara Africa, in particular as they relate to 
areas of democracy and governance, trade and economic 
development, and security sector reform.
    As the G-8 summit in Gleneagles, Scotland, in July 
demonstrated, there is a general consensus among world leaders 
to focus more attention on Africa and African development 
needs. The United States has been and will remain a leader in 
this effort. I believe that it is our role at USAID to work 
with our African partners to hasten the advent of peace, 
democracy, good governance, security, and quality of life on 
the continent, as well as address major humanitarian crises 
such as the potential spread of Avian influenza. Bilateral 
country programming is the central avenue for U.S. assistance, 
but in Africa many of the most complex development challenges 
do not respect national boundaries.
    Many important issues can best be solved on a regional 
basis. Thus, we are giving priority to funding selected 
regional programs and initiatives that have achieved impact by 
addressing regional conditions. USAID programs promote and 
endeavor to enhance partnerships between African leaders, 
governments, multilateral development institutions, business, 
universities, and other nongovernmental organizations.
    We also value the principle of ownership and attempt to 
build on the leadership, participation, and commitment of 
countries and their peoples. One of the ways we do this is by 
supporting and strengthening African subregional organizations 
as well as organizations such as the New Partnership for 
Africa's Development that cover all regions of Africa. 
Organizations such as this are key partners and stakeholders in 
the work that we do.
    This past year, USAID through the President's initiative to 
end hunger in Africa actively facilitated NEPAD's leadership to 
organize five regional meetings along with a continent-wide 
summit. The meetings engaged most African countries and over 
1,000 stakeholders took part. Subsequently, the G-8 members at 
Gleneagles committed to supporting the CAADP, which is the 
Comprehensive Africa Agricultural Development Program.
    Other key regional organizations with whom we work include 
COMESA and ECOWAS, and my written statement provides details 
about the extent of our work, the work of USAID, with these 
organizations. As the largest bilateral donor in sub-Saharan 
Africa, we must actively collaborate with our African 
counterparts in order to achieve common goals.
    Mr. Chairman, I sincerely appreciate this subcommittee's 
continuing interest in Africa and USAID's critical role on the 
continent. I would be happy to take your questions at this 
time.


    [The prepared statement of Mr. Pierson follows:]

        Prepared Statement of Lloyd O. Pierson, USAID Assistant
                        Administrator for Africa

                            I. INTRODUCTION

    Mr. Chairman and members of the committee, I am pleased to have the 
opportunity to appear before you once again as Assistant Administrator 
for Africa to update you on our work at the United States Agency for 
International Development (USAID) to support development and peace and 
security efforts in sub-Saharan Africa. In today's testimony, I'd like 
to address the importance of African ownership of regional development 
and humanitarian efforts and the critical role of African regional and 
subregional organizations, in the areas of democracy and governance, 
trade and economic development, and security sector reform.
    As the G-8 summit in Gleneagles, Scotland in July demonstrated, 
there is a general consensus among world leaders to focus more 
attention on African development needs. The United States has been and 
will remain a leader in this effort. It is our role at USAID to work 
with our African partners to support the advent of peace, democracy, 
good governance and security on the continent, as well as help ensure 
the conservation of Africa's natural resource base and address major 
humanitarian crises such as the potential imminent spread of Avian 
Influenza.
    As you are aware, sub-Saharan Africa is the world's poorest region: 
over half of its 700 million people live on less than $1 per day. Rapid 
urbanization poses new and difficult challenges as the demographic 
landscape changes and cities struggle to provide sufficient jobs and 
services, particularly for the young, who can become easy targets for 
extremists, criminal gangs or armed militias. The HN/AIDS pandemic has 
completely overwhelmed many health systems and impoverished families. 
The aftermath of lingering conflicts and armed strife have exacted a 
huge toll on economic growth. And, if not averted, Avian Influenza 
could have a similarly disastrous effect on the region.
    Yet despite these challenges, significant progress has been made on 
several fronts. The number of free democracies in Africa has almost 
tripled from four to 11 over the past decade and more than half of the 
remaining countries in the region are in the transition process toward 
transparent and free democracy. The number of conflicts in sub-Saharan 
Africa has decreased in recent years, signaling achievements in 
conflict mitigation and resolution. Liberia, Angola, and Sierra Leone 
have restored peace after years of civil war. And the peace agreements 
in Congo and the Sudan give rise to renewed hope that an end to these 
prolonged conflicts is in sight.
    Furthermore, sub-Saharan Africa posted its strongest level of 
overall GDP growth in 8 years in 2004, topping 5 percent. Mozambique, 
Tanzania, and Senegal are among countries with robust growth rates. 
However average GDP per capita in Africa is still only $500, less than 
one-tenth the global average of $5,510, meaning that much work remains.
    During President Bush's June 10, 2005 speech, he noted that the 
link between democracy and development is critical as experience has 
shown that ``aid works best when certain conditions are in place such 
as a commitment to just governance, respecting the rule of law, 
investing in citizens' health and education, and opening up 
economies.'' The number of African countries that pass the Millennium 
Challenge Account (MCA) indicator test is a clear indication of the 
continent's progress and potential. As you know, the MCA funds only 
countries that have demonstrated a commitment to democracy and good 
governance, investing in people and economic freedom. In FY06, twelve 
of the twenty-three countries that are fully eligible for MCA funding, 
and seven of the fifteen countries eligible for threshold assistance, 
were located in Africa. Also for FY06, four of the seven new countries 
selected as eligible to apply are Sub-Saharan African.
    USAID programs in Africa are rooted in the President's commitments 
to Africa. Funding for these Presidential initiatives is programmed to 
countries where the impact is expected to be the highest. I will 
briefly discuss the most significant and far-reaching of these 
Presidential and Agency commitments toward the end of my testimony.

              II. THE IMPORTANCE OF REGIONAL ORGANIZATIONS

    Country programming is the central avenue for U.S. assistance, but 
many of the most complex development challenges do not respect national 
boundaries and are best addressed on a regional basis.
    Examples of regional program priorities include:


    1. Programs that address cross-border problems requiring action 
from several countries. For example, inter-regional trade programs to 
reduce barriers to movement of goods and services across borders; 
cross-border peace or counter-terrorism initiatives; and health 
initiatives to stop the spread of diseases like HIV/AIDS through 
regional transportation channels.

    2. Programs to help indigenous governmental and non-governmental 
regional organizations to promote policy reforms and improve the 
institutional capacity of member countries. These include programs to 
improve governance, fight infectious diseases, expand trade, improve 
food security, protect biodiversity, mitigate the risks of conflicts, 
and address the sources of state fragility that cross national 
boundaries.

    3. Regional programming is also used to improve information-
sharing, technology transfer and research among neighboring countries 
and support joint management of shared resources (e.g., water).


    To effectively implement regional programs, efficient coordination 
mechanisms are required. African regional organizations, such as the 
New Partnership for Africa's Development (NEPAD) and Common Market for 
Eastern and Southern Africa (COMESA) are ideally suited to provide this 
mechanism. Therefore, USAID seeks to improve the effectiveness of 
African regional organizations to perform their missions and to work 
through these organizations to target regional development objectives.
    USAID programs promote and enhance partnerships between African 
leaders, governments, multilateral development institutions, business, 
universities, and other nongovernmental organizations. We also value 
the principle of ownership and strive to build on the leadership, 
participation and commitment of countries and their peoples by 
supporting and strengthening African regional organizations. Regional 
organizations are key partners and stakeholders in our work to improve 
the lives of the continent's citizens for a variety of reasons.
    First, because regional organizations are backed by national 
African leadership, they provide a level of local legitimacy to 
critical issues in ways that global or bilateral institutions cannot. 
For example, the African Union (AU) and the Economic Community of West 
African States (ECOWAS) have played pivotal roles in mediating conflict 
and securing peace in the Sudan and Liberia.
    Second, as I noted earlier, many of Africa's challenges require a 
regional approach. It is essential to address the HIV/AIDS crisis 
through regional mechanisms, as this disease travels freely across 
borders. With this in mind, USAID is providing a grant to the West 
Africa Health Organization (WAHO) to allow key personnel to receive 
joint training and share critical information needed to combat HIV/AIDS 
more systematically.
    Third, coordination of multi-donor, multi-country initiatives is 
far more efficient when carried out through a single institution that 
is engaged with all relevant partners and has a significant presence in 
each participating country. Each donor is thus engaged with a single 
partner, rather than one or more per country; and the regional 
organization is able to harmonize donor support, thereby greatly 
reducing transaction costs.
    For these reasons, the USAID is aligning several key programs to 
support African leaders in strengthening African regional institutions.

               III. STRENGTHENING REGIONAL ORGANIZATIONS

    African regional and subregional organizations were established and 
have evolved during different time periods and for distinct purposes. 
As you are aware, there are organizations that encompass the continent, 
such as the African Union (AU) and the New Partnership for Africa's 
Development (NEPAD), as well as those that operate within small 
geographic regions, such as the Economic Community of West African 
States (ECOWAS) and the Common Market for Eastern and Southern Africa 
(COMESA). They currently possess varying levels of capacity and do not 
always coordinate their efforts.
    The Africa Bureau is collaborating with regional organizations in 
an effort to achieve mutual goals and objectives. We, along with other 
international and bilateral donor agencies, see great promise in these 
institutions as they continue to increase their capacity to bring about 
peace and security, and improve the policy environment for sustainable 
development in Africa. I will highlight several examples in which 
African leadership and ownership of a regional initiative contributed 
to the overall positive outcome.

A. Democracy and Governance
    We are beginning to see the genuine results of African regional 
leadership in the area of democracy and governance. One innovative 
instrument introduced by African leaders through the New Partnership 
for Africa's Development (NEPAD) is the African Peer Review Mechanism 
(APRM). NEPAD was launched in July, 2001. Its mission is to ``establish 
the necessary conditions which enable the continent to play its 
rightful role in the global economy and in international negotiations'' 
and to ``promote sustainable development at the economic, social and 
cultural levels as well as the integration of African economies.'' 
NEPAD falls under the African Union (AU) umbrella of regional 
organizations and is both a framework and a vision for sustainable 
development in Africa. As part of NEPAD, African leaders have made a 
commitment to seek the end of conflicts in Africa and improve 
political, economic and corporate governance to foster a better climate 
for transformational development.
    The African Peer Review Mechanism (APRM) is designed to monitor 
progress in improving political, economic and corporate governance. 
This Peer Review process began in late 2004 in Ghana, Mauritius, Kenya 
and Rwanda. As of today, 24 African countries have agreed to undergo 
peer review. The NEPAD Secretariat oversees the process, with 
participation from African institutions such as the U.N. Economic 
Commission on Africa, the African Development Bank, the Africa 
Commission on Human Rights, and the Africa Institute. Representatives 
from these institutions serve on Peer Review Teams assigned to the 
countries volunteering for review. Though the implementation of the 
review process is proceeding much slower than expected, the results of 
the reviews of two countries--Ghana and Rwanda--should be made known 
soon.
    While recognizing that Africans have the principal responsibility 
for the continent's development, African leaders look to their 
development partners--primarily donor countries, multilateral 
organizations and international financial institutions--to help create 
a more enabling external environment for African development. 
Specifically, they seek to increase Official Development Assistance 
(ODA) with lower transaction costs, greater access to markets in the 
industrialized countries, a reduction in the debt burden, and expanded 
foreign direct investment. NEPAD refers to these African commitments 
and desired changes by donors as ``mutual accountability.''
    The United States has expressed its support for the commitments 
that African governments have made to improve political, economic, and 
corporate governance. As an active participant in the G-8 African 
Personal Representatives Meetings, the United States is involved in 
assessing the progress in implementing the G-8 African Action Plan.
    The Southern African Development Community (SADC) was founded in 
1979 as the Southern African Co-ordination Conference (SADCC), to 
harmonize economic development among the countries in Southern Africa. 
In 2001, SADC reorganized to focus on trade and finance, 
infrastructure, food and agriculture, and social and human development.
    USAID has supported SADC initiatives since the early 1980s in areas 
such as strengthening regional transportation systems, agricultural 
development through research and food security and environmental and 
natural resource activities. With the end of apartheid in South Africa, 
SADC has placed an increasing priority on regional economic 
integration. USAID has provided assistance, particularly in the 
implementation of the SADC Trade Protocol, which lays the groundwork 
for a free trade area among SADC member states by 2008.
    Our current relationship with SADC can best be described as 
strained. In 2003, the SADC Secretariat decided to cease official 
cooperation with USAID because U.S. policy and legislation restricts 
assistance to Zimbabwe, a SADC member. For our part, we were 
disappointed that SADC did not support our position on Zimbabwe. 
However, we continued to support regional integration in Southern 
Africa by working directly with the SADC technical working groups and 
independent units. For example, USAID has supported the SADC 
Parliamentary Forum, an autonomous unit, to promote compliance with 
regional norms and standards for free and fair elections.

B. Trade and Economic Development
    USAID actively supports African regional and subregional 
organizations in the area of trade and economic development. For 
example, USAID is playing a major role in supporting NEPAD by funding 
and facilitating the implementation of the Comprehensive African 
Agricultural Development Program (CAADP). One of NEPAD's major 
initiatives, CAADP was established by African Heads of State, who have 
committed the resources and leadership of their governments to support 
its implementation.
    USAID's support for the African Union is channeled through NEPAD, 
as just noted, to establish a CAADP process and investment plan. CAADP 
is a growth-oriented agriculture program, aimed at increasing 
agricultural growth rates to 6 percent per annum to create the wealth 
needed for rural communities and households in Africa to prosper. The 
CAADP has four key components: (1) Extending the area under sustainable 
land management and reliable water systems; (2) improving rural 
infrastructure and trade-related capacities for market access; (3) 
increasing food supply, reducing hunger, and improving responses to 
food emergency crises; and (4) improving agricultural research, 
technology dissemination and adoption.
    We will also support AU/NEPAD's CAADP implementation through other 
regional economic communities that will build the regional capacity 
needed for achieving agricultural growth and increase the availability 
of and access to food within regions. CAADP will enable the AU to build 
a global multi-donor partnership that will align with African 
agriculture resources and country and regional contexts, help African 
leaders create the conditions needed to achieve a 6-percent 
agricultural growth rate per year and finally break the cycle of 
famine.
    USAID will support the CAADP in up to six countries that are 
meeting their pledges to increase support for and attention to the 
agricultural sector. In addition, we will collaborate on efforts in 
hunger hot spots to develop a process and plan to address the policy 
and technical barriers that make countries famine prone and ultimately 
integrate them into the CAADP. This past year, USAID, through the 
President's Initiative to End Hunger in Africa (IEHA), actively 
facilitated NEPAD's leadership to organize five regional meetings--
along with a continent-wide summit, which was held in Accra, Ghana in 
May of this year. This was a featured G-8 action promised at Sea 
Island. The meetings engaged almost every African country and over 
1,000 stakeholders took part. Subsequently, the G-8 members at 
Gleneagles committed to supporting CAADP. NEPAD and its Regional 
Economic Communities continue to look to USAID for leadership and 
advice on CAADP, and we expect this initiative to yield tangible 
results in the very near future.
    At a subregional level, the Economic Community of West African 
States (ECOWAS) was founded in 1975 to attain regional integration 
through cooperation and development in all fields of economic activity 
that would raise the standard of living and increase the stability of 
West African countries. ECOWAS works toward creating region-wide 
policies and programs in key sectors including energy, transportation 
and agriculture, as well as on developing a common external tariff for 
the region. ECOWAS also has been actively engaged in mitigating 
conflict in the region in order to enable stronger economic ties.
    In the energy sector, USAID is currently assisting ECOWAS to create 
a West Africa Power Pool (WAPP) for energy trading and to build linking 
lines throughout the region to integrate the fragmented national 
electric power systems of West Africa, increasing access to affordable, 
reliable electricity. USAID's technical assistance was a deciding 
factor in the World Bank's June 2005 approval of a $350 million 
adaptable program lending facility to support the WAPP. We plan to 
continue our collaboration with ECOWAS to speed development of this 
critical sector.
    USAID is also helping ECOWAS to enhance regional economic 
integration by increasing trade and reducing customs barriers. In 
addition, we are currently providing financial and capacity building 
support to ECOWAS in the areas of agriculture, humanitarian concerns 
such as trafficking in persons, health, and organizational development, 
primarily in financial management and manpower systems. Prospects for 
ECOWAS' continued growth and development are good primarily because 
there is widespread recognition in the region that an effective 
regional organization must exist if economic and political integration 
is to occur and, within the donor community, there is a willingness to 
collaborate and to coordinate assistance efforts, with an emphasis on 
capacity building.
    In another sub-region of the continent, the Common Market for 
Eastern and Southern Africa (COMESA) is a group of 20 African nations 
which agree to promote integration through trade, natural resource and 
human development for the benefit of their respective populations. The 
primary objectives of COMESA are to create a Free Trade Area, establish 
a Common External Tariff among member states, and to remove structural 
and institutional weaknesses of member states to attain collective 
sustainable development. With a combined population of 385 million and 
a market of $388 billion, the COMESA region constitutes an important 
potential market for the United States.
    Since 1998, USAID has viewed COMESA as a key development partner, 
providing approximately $25 million in assistance to support capacity 
building for COMESA in the areas of (1) trade and institutional 
strengthening and (2) conflict prevention, mitigation and response.
    COMESA is a principal USAID partner in promoting and fostering 
U.S.-Africa trade relationships. Our programs seek to help the private 
sector and governments in the region understand the challenges of the 
global marketplace and take advantage of the opportunities stemming 
from the World Trade Organization and the COMESA Free Trade Area. 
Specific areas of focus include drafting a regional approach to 
biotechnology and biosafety, harmonization of telecommunications 
policy, development of a common investment area, and the creation of a 
regional customs bond guarantee program. It should be noted that in 
2002 COMESA member states experienced an intraregional trade growth 
rate of 22 percent. Finally, USAID funding is helping COMESA to develop 
stronger linkages between the Secretariat and the relevant Ministries 
in member states to improve capacity in financial management, human 
resource development and information technology.

C. Security Sector Reform
    USAID is aligning its efforts in security sector reform to 
complement the extensive initiatives of the State Department and other 
USG agencies. For example, USAID is working with ECOWAS to develop its 
conflict prevention and mitigation mechanism, which involves setting up 
a central unit at headquarters, establishing Observation and Monitoring 
Centers and setting up ancillary entities for conflict resolution. 
While progress toward achievement of its economic objectives has been 
slower, ECOWAS has established a strong track record in its peace 
keeping operations in conflict-prone areas, which substantially 
improves the regional economic climate and sets the stage for sustained 
growth. For example, ECOWAS had a pivotal role in brokering peace in 
Togo, Cote d'Ivoire, Liberia and Guinea Bissau in recent years. ECOWAS 
and the African Union were instrumental in overturning the coup in Togo 
earlier this year.
    USAID is also working with COMESA in conflict prevention and 
mitigation to provide governance skills training for parliamentarians 
and civil society organizations throughout the region. Support was also 
provided to the COMESA Court of Justice to adjudicate cases and 
disputes at a regional level. In addition, USAID funds are being used 
to design a protocol and accreditation system for private sector and 
civil society organizations, along with the establishment of a Peace 
Desk to advise the Secretariat on peace and security issues among 
member states.
    Finally, I would like to note our work with the Intergovernmental 
Authority on Development (IGAD). Comprised of seven member states 
(Djibouti, Eritrea, Ethiopia, Kenya, Somalia, Sudan and Uganda) located 
in the Horn of Africa, IGAD was established in 1986. Its focus is on 
three priority areas: food security and environmental protection, 
conflict prevention and management, and economic cooperation and 
integration.
    Although USG funding for IGAD is complicated by statutory 
restrictions regarding Sudan and Somalia, both IGAD member states, IGAD 
is a significant partner. Most concerns have abated since Uganda took 
on the rotating Chairmanship of IGAD in 2003. Currently, we assist IGAD 
in three critical areas.
    IGAD provides the platform for the organization of the peace talks 
for both Sudan and Somalia. Kenya has been designated by IGAD as the 
member state to lead these negotiations. The IGAD Secretariat has 
played a substantial role in mobilizing financing for both initiatives; 
without the contribution of IGAD, these regionally led negotiations 
might never have taken place.
    A second major IGAD activity is the implementation of a conflict 
early warning mechanism (CEWARN). From its inception in 1987, this 
initiative has been financed jointly by USAID and the German Technical 
Cooperation Organization. While CEWARN had no actual response 
mechanism, it has the near-term potential to significantly reduce the 
level of livestock theft, conflict, violence and death in trans-border 
areas by providing information on causes and events that will permit 
IGAD member states to intervene in local conflicts before they 
escalate. If successful, this activity will help moderate conflict in a 
severely conflict-prone region.
    The third IGAD activity supported by USAID is the Drought 
Monitoring Centre based in Nairobi. IGAD member states have assumed 
responsibility for financing the operational costs of the center, which 
was previously operated through the World Meteorological Organization. 
The Centre's reports on drought conditions, food production projections 
and forage conditions are essential for the planning of food and other 
emergency assistance in the region.
    Each of these regional organizations cited in this testimony has 
assumed a critical coordination and technical role to advance economic 
development and trade, improve conditions conducive to democracy and 
good governance, and to bring about an end to violent conflict and to 
secure peace in Africa. By supporting activities to increase 
institutional effectiveness and improve the enabling environment in 
which they operate, USAID support enables these regional partners to 
fulfill the missions that their members have laid out for them.

            IV. KEY PRESIDENTIAL AND AGENCY INITIATIVES FOR
                  STRENGTHENING REGIONAL ORGANIZATIONS

    As I noted in my testimony before you last March, over the past 4 
years, USAID has significantly expanded our level of official 
development assistance in Africa. Our strategy in Africa is shaped by 
new thinking about the role of foreign assistance that has crystallized 
since the millennium began. First, U.S. strategic and foreign policy 
interests are front and center, in keeping with USG recognition that 
development--along with diplomacy and defense--is one of the three 
tools of foreign policy and is consistent with the joint objectives 
laid out in the State Department-USAID Strategic Plan.
    Second, our strategy reflects a new paradigm for foreign aid 
focusing on the distinction between ``transformational development'' 
and ``fragile states.'' Africa has more ``top performing'' 
transformational states and more ``fragile'' states than any other 
region. And many of the transformational development countries have 
important vulnerabilities that, if neglected, may cause them to slip 
into fragility.
    Third, we are exercising a more directive role in USAID/Washington, 
to ensure that funds are allocated to those country and regional 
programs and toward those sectors and goals with the greatest 
likelihood of significant impact. For its part, Washington will align 
its staffing, operating expense and programmatic resources to assist 
recipient Missions to achieve that impact. A significant portion of our 
assistance will be channeled through six Presidential Initiatives.


    The President's Emergency Plan for Aids Relief provides major 
funding to address the most serious effects of the HIV/AIDS pandemic;

    Another health initiative, the President's Initiative on Malaria, 
will expand malaria prevention and treatment programs in up to 15 
African countries where the incidence is highest by 2008. USAID is the 
lead managing agency of this program;

    In the area of education, the Presidential Africa Education 
Initiative supports training of new teachers and provides more 
textbooks and scholarships for children throughout Africa;

    The Presidential Initiative to End Hunger in Africa focuses on 
programs to improve the use of modem technology and increase 
agricultural productivity and income for small-scale farmers, thereby 
increasing food availability;

    Formerly known as the Africa TRADE Initiative, the President's 
African Global Competitiveness Initiative is working to improve the 
trade and investment environment and promote the fuller integration of 
Africa into the global economy;

    The Congo Basin Forest Partnership supports efforts to conserve the 
outstanding forest and wildlife resources of the Congo Basin Forest, 
which is the second largest remaining tropical rain forest in the 
world; and finally,

    The Africa Bureau Anti-Corruption Initiative is designed to reduce 
corruption in sub-Saharan Africa and to lend specific support to recent 
efforts by African leaders to link good governance with sustainable 
development practices.

                             V. CONCLUSION

    As the largest bilateral donor in sub-Saharan Africa, we must 
actively collaborate with our African counterparts in order to achieve 
our common goal of a better quality of life for all Africans. Regional 
organizations are key development actors in the countries they serve. 
Their successes contribute to overall levels of peace and security, and 
economic development. As they strengthen their institutional and 
technical capacity, their potential impact will only increase. By 
supporting discrete regional activities and by helping to strengthen 
these regional organizations through training and well-targeted 
technical assistance, USAID will continue to play a leadership role in 
this process.
    Mr. Chairman, I sincerely appreciate this committee's continuing 
interest in Africa and USAID's critical role in the continent. I would 
be happy to discuss these and other issues of concern in Africa with 
you and members of the committee at this time.

    Senator Martinez. Thank you, Mr. Pierson, very much.
    Senator Obama, do you have an opening statement you care to 
make?
    Senator Obama. Well, I just want to thank both of you for 
the services you are rendering to the country, and I think that 
all of us recognize that, given the enormous problems and 
enormous opportunities in Africa, that it is absolutely 
critical that we build up institutional capacity in these 
areas, whether it is military capacity or peacekeeping capacity 
through the African Union or it is various institutional 
mechanisms to improve public health systems throughout the 
region or mechanisms to ensure that economic development is 
happening at an appropriate scale. These are all issues that 
would benefit from both institutions inside each country, but 
also regional approaches.
    So I am just encouraged that we are thinking in those terms 
and I hope that our good intentions are followed up by strong 
action.
    Senator Martinez. Thank you, Senator.
    Just a couple of questions to follow up. Secretary Frazer, 
I was intrigued by your mention of the Darfur and increased 
support role for the UN. I wonder if you might elaborate a bit 
on the Darfur situation and what you see. You mentioned also 
something about a mandate and I am not sure I understood what 
you meant by that. So if you could elaborate on that aspect of 
your testimony I would appreciate it.
    Ms. Frazer. Yes, thank you, Mr. Chairman.
    What we have seen in Darfur is that the African Union has 
about 6,700 troops, the AMIS force in Darfur currently. The 
sense is that you need about 12,000 forces in Darfur. The 
African Union forces have played a fabulous role in deploying 
quickly and also in ending the type of organized, systematic 
violence. There is episodic violence that is taking place right 
now, but AMIS has effectively stamped down the massive human 
rights violations and killings that were going on last summer.
    But what we have found is, both in terms of providing 
logistical support and operational command and control, that 
there may need to be some further assistance to the AMIS force 
as well as to increase the troop ceiling, to actually get to 
that target, about 12,000. What type of assistance are we 
talking about specifically? What we have found is that when you 
get beyond battalion and brigade level, you start going to 
brigade and division level, and coordinating the logistics and 
the operational understanding of the battlefield as a whole 
requires more headquarters planning.
    So the UN is able to provide that capacity, that 
headquarters planning element, where the AU may be reaching the 
limit of its capacity. Also, they may not have enough forces 
sufficient to actually reach that 1se priority2,000 troop 
ceiling in Darfur, as AU missions currently are in Cote 
d'Ivoire, in Liberia, and still in Burundi and other places.
    So what we are looking at is the possibility--we are 
discussing this with our colleagues in the AU--the possibility 
of the UN basically rehatting the forces that are there and 
then expanding those troops with new troop contributors. When I 
talked about a mandate change, I was talking about from an AU 
mandate to a UN mandate, basically rehatting the force.
    Senator Martinez. So it would be a UN force then rather 
than an AU force?
    Ms. Frazer. That is one of the options that is being looked 
at, to try to again increase the capacity, as well as the troop 
numbers. This is still under discussion.
    Senator Martinez. How many troops does the AU have 
currently deployed in the three or four nations that you 
referenced?
    Ms. Frazer. That is a good question, Mr. Chairman. I do not 
have those specific numbers. In Darfur alone it is 6,700.
    Senator Martinez. But it is reaching the maximum that they 
can deploy probably, which prompts the need for UN 
intervention----
    Ms. Frazer. That is exactly right.
    Senator Martinez [continuing]. At least in the sense of 
command and control and technical support, I suppose?
    Ms. Frazer. That is right, yes, sir.
    Senator Martinez. There seem to be a lot of organizations 
and hard to sometimes understand their responsibilities and 
whether or not they might even be conflicting and overlapping 
in terms of responsibility, objectives, and membership.
    I just wonder if you could explain to us how formal the 
relationships are between the various organizations, ECOWAS and 
the African Union and all of these various groups that are all 
participating one way or the other. What are the agreements 
that govern them and how do we interact with them?
    Ms. Frazer. Yes. The relationship between the subregional 
organizations and the AU is rather formal. The subregional 
organizations, as I said, are the constituent architecture of 
the African Union and in particular, in the peacekeeping field, 
the standby brigades will be based on the subregional 
organizations, but they would be the standby brigades deployed 
by the AU. So the relationship between, say, ECOWAS, SADC, 
IGAD, and the East Africa community is rather formal. The 
overlapping relationship is where you get into the monetary 
unions, the economic communities, which often are broader. Let 
us say the COMESA overlaps East Africa Community, as well as 
the Southern African Development Community.
    And they have to harmonize their rules for trade, for 
example, or the Southern African Customs Union and how it fits 
within the Southern African Development Community. So 
harmonizing the trade rules, the tariff rules, is important 
amongst these economic units. Then what started as economic 
organizations have taken on more of a political and military 
character or security character. The main ones are ECOWAS, 
SADC, IGAD, and the East Africa Community. Our relationship is 
more or less formal with those four. Our Ambassador in Nigeria 
also is accredited to ECOWAS. Our Ambassador in Botswana also 
is accredited to the Southern African Development Community and 
serves as our liason to that organization.
    Senator Martinez. Thank you.
    Administrator Pierson, I heard you reference Avian 
influenza. How big a threat does it appear to be in the African 
continent? Do we have a handle on that and what steps are we 
taking to respond to a potential outbreak?
    Mr. Pierson. It potentially is a major threat, Mr. Chairman 
Approximately 3 weeks ago all of our mission directors and 
regional mission directors in Africa were on a conference call 
with me and the director of the veterinary services for the 
Food and Agriculture Organization in Rome. What he told us at 
that time--this was approximately 3 weeks ago--that Africa was 
at very high risk and there was the potential, particularly in 
East Africa, that Avian flu could hit within a 2-week period.
    That 2-week period has gone. There are no cases of which we 
are aware at this time. But what it did emphasize to us is the 
urgency of how we had to approach the problem. The migratory 
pattern of the birds as we understand put the East Africa area 
at the highest risk immediately. On a longer term, West Africa 
is potentially, what we are told, within a 6-month period.
    The President has made Avian flu a very large priority. It 
is the number one priority for the Administrator of USAID. We 
have asked all--we have met with all of the African ambassadors 
in Washington, emphasizing the importance of preparation for 
Avian flu.
    Senator Martinez. Thank you, sir. My time is up.
    Distinguished ranking member, we turn it over to you for 
your questions.
    Senator Feingold. Thank you, Mr. Chairman.
    Secretary Frazer, clearly the AU demonstrated incredible 
ability and was vital in bringing steadiness in Burundi. What 
can we learn from that accomplishment that would help us 
address the terrible human rights abuses in Darfur and are 
there any shortcomings of the AU's approach that we ought to be 
careful to avoid?
    Ms. Frazer. Thank you for that question. Indeed, in 
Burundi, the AU again took a leadership role. They deployed 
early. They had tremendous challenges in terms of financing. 
The United States helped to finance them with about $10 
million, but over time what we ended up doing was exactly what 
is being looked at as an option for Darfur, which is eventually 
we blue-hatted the force in Burundi and it became a UN force, 
and that was partly to help to sustain that force. So I think 
that that model is also a model that we used in Liberia, in 
which the ECOWAS forces were able to deploy quickly into the 
crisis. These mainly were Nigerian forces, but there also were 
Ghanaian, Senegalese, and others, and over time we again blue-
hatted them and brought in international forces to help sustain 
that mission. So I think that that is a lesson learned and a 
model both from Burundi and Liberia that applies very well to 
Darfur. Of course, the operational area is much larger in 
Darfur than was the case in Burundi, so the logistical 
challenge is much greater. So the importance of trying to build 
the capacity of the AU's headquarters--right now it is 
important for us to, as we said, look at blue-hatting that 
force, but it is also over the long term necessary to build 
that institutional capacity within the AU itself.
    Senator Feingold. In the examples you gave, were the AU 
force supplemented by international, other national forces, or 
did they displace the African forces?
    Ms. Frazer. In the case of Liberia they were supplemented. 
In the case of Burundi, it is basically the AU forces that 
stayed there and they were paid for as a UN force. But in the 
case of Liberia they were supplemented. Also in the case of 
Liberia, we found again this issue of headquarters planning 
support.
    Actually, in the case of ECOWAS, the United States played a 
role putting military advisers into ECOWAS headquarters to give 
them that planning capability. So what we need to do over the 
long term is provide that capacity internally.
    Senator Feingold. When do you think the time frame would be 
for having this happen in Darfur, the blue-hatting that you are 
talking about?
    Ms. Frazer. Well, as I say, it is being discussed as one of 
the options. But if you look at the time line for UN 
deployments, the advantage of the AU and regional forces is 
that they can deploy rather quickly, but the time line for a UN 
force, where the Untied Nations Peacekeeping Office (DPKO) 
would have to actually get involved in coming out, doing an 
assessment, then doing the planning at UN headquarters, it 
would not be any earlier, I would think, than mid-2006.
    Senator Feingold. Would you talk about your sense of U.S.-
AU relations? What is the status of the expected AU office in 
Washington here and will the U.S. appoint an ambassador to the 
AU?
    Ms. Frazer. I think our relations are excellent with the 
AU. We consult frequently with them. The United States, as you 
know, deployed troops to AMIS. We airlifted some of those 
troops to Darfur. So we have a very good diplomatic and 
operational relationship. We are expecting the AU office to 
open in Washington. We are looking forward to that. We have 
discussed it with Chairman Konare, as well as President 
Obisanjo, the chairperson of the AU right now. As for the 
United States appointing an ambassador, that is certainly under 
strong consideration by the administration, to appoint an 
ambassador to the AU to increase that strong positive 
relationship.
    Senator Feingold. When do you think the Washington office 
of the AU will open?
    Ms. Frazer. Any day. We are working with them right now to 
open that office. They have agreed to do it.
    Senator Feingold. OK. How are we helping on the border of 
Ethiopia and Eritrea? UNMEE has said that we are on the cusp of 
warfare there and I understand the AU hopes to have a 
preventative force, I think it is called the Africa Standby 
Force, ASF, in this region by next year. How quickly can this 
nascent ASF establish stability and where do the AU forces come 
into play here?
    Ms. Frazer. On the Eritrea-Ethiopia border, Senator 
Feingold, I have been focusing my attention on getting UNMEE 
back up and running. As you know, President Isaias has grounded 
UNMEE. We think it is critical that UNMEE be allowed to 
operate, and I have been really concentrating my attention on 
trying to get that mission back up and operating. So I am not 
certain about the time line for an AU force or specifically 
what role an AU force would play on that in terms of the 
boundary.
    I think the important thing is to concentrate on the UN 
mission that is already there, that has the legitimacy, that 
has the mandate.
    Senator Feingold. Keep me informed, if you could, of 
whatever developments there are in that regard. You obviously 
noted that prevention and mitigation are important in assuring 
that tension does not erupt into a conflict here. Are we 
engaged in political diplomacy to prevent Ethiopia and Eritrean 
conflict?
    Secretary Frazer. We are, with Kofi Annan. He has talked 
often with Secretary Rice on this issue. We feel that it is 
extremely important to move towards demarcating the boundary. 
We believe that it is also important to get both countries to 
reduce the tensions between them, and we think it is extremely 
important, as I said, to get UNMEE up and operating again. So 
we are working with the UN. We have had conversations at a high 
level both with Ethiopia, Prime Minister Meles, as well as with 
Eritrea. So there is definitely quite a lot of diplomacy taking 
place right now to try to lower the tension.
    Senator Feingold. There have been very disturbing 
allegations, on another front, about the activities of 
peacekeeping forces in Africa. Reports have described evidence 
of rape and sexual abuse by peacekeepers and staff members in 
Congo, for example, and have suggested that such abuses are too 
often tolerated. What role has the United States played in 
supporting regional military training to ensure that 
peacekeepers do not engage in these kinds of abuses?
    Ms. Frazer. We certainly have--in our African Contingency 
Operations Training Assistance program, we certainly engage in 
human rights training. We have supported the development of 
codes of conduct in places like Mali. We support the work of 
UNDP, UNDPKO, and others also to try to develop these codes of 
conduct, that even soldiers can carry in their pockets. So this 
is integrated into our training programs. We also have to hold 
those who have committed these crimes accountable, and I think 
that the UN and UNDPKO are definitely focused on that.
    Senator Feingold. Thank you, Mr. Chairman.
    Senator Martinez. Senator Obama.
    Senator Obama. Let me just see if I can close the loop here 
on the Darfur situation. Is it my understanding then that blue 
helmets--that the United States is currently and actively 
working with the United Nations to get UN troops to supplement 
the AU in Darfur?
    Ms. Frazer. No, Senator Obama, that would be going too far 
at this point. What we are doing is consulting with the African 
Union about various options for increasing the capacity of the 
AMIS force. One of the options is the possibility of blue-
hatting them with the UN.
    Senator Obama. OK. But the AU forces as I understand it--
several months ago there was talk about ramping up to 12,000. 
That does not seem to be possible any time soon, am I correct?
    Ms. Frazer. That is correct. That is exactly right.
    Senator Obama. What also seems to be accurate is that with 
the 7,000 or so AU troops that are currently there we do not 
have--we have sufficient coverage to essentially bear witness 
and perhaps stop some of the most egregious activity; we do not 
have the capacity to cover an enormous region, and so what is 
frequently happening then is that activities outside of the 
site of AU forces may intimidate populations. They are all 
displaced. There does not seem to be any prospect at this 
point, given the strength of forces there, that we are going to 
be able to actually start moving people back to their homes 
from the settlements that have developed. Is that accurate?
    Secretary Frazer. I think I would answer it in this way. We 
are working on three fronts. The most important front--and I am 
leaving this evening, going to Darfur to meet with SLM leaders. 
The most important front is to try to get a political solution. 
That ultimately is what will allow people to return home to 
create an environment of peace and safety and security, through 
a political negotiation. So we are working very hard on that 
track. The second is to continue to put pressure on all parties 
to adhere to the ceasefire, because frankly even 12,000 troops, 
given the size of the area, will not be able to stop all 
incidents of violence.
    Senator Obama. Fair enough.
    Ms. Frazer. So we really do need to get a commitment out of 
the government of Sudan, out of the SLA, the JEM, and force the 
government to control the activities of the janjaweed to adhere 
to their ceasefire. Then yes, indeed, on the final front, we 
need to increase the number of monitors. The important point 
here is we can do a lot now even with the 6,700. Part of that 
is for the AU to clarify the mandate of those forces. It seems 
to be that some units----
    Senator Obama. Sorry to interrupt, but is that a problem of 
the AU clarifying the mandate or is that us forcing Sudan's 
hand in order to clarify the mandate?
    Ms. Frazer. No, I think that what I was saying is that it 
is the AU. It is the AU mandate. Some units of the AU, the AMIS 
force, understand that they can protect civilians, for example, 
and that is within their mandate to do. Others think that they 
have to stand back and do nothing and just observe and report.
    Senator Obama. Yes, but are they not also constrained by 
what the Sudanese government is willing to grant them; there 
has been a consistent issue of whether the mandate is too weak, 
and that we should be forcing the Sudanese government's hands 
even as the parallel negotiations are taking place with the 
rebel groups and the Sudanese government, that we also have 
somewhat hamstrung the AU? So it is not entirely a mistake on 
their part to assume that there is some ambiguity to that 
mandate.
    Ms. Frazer. No, I think there is a mistake on their part. I 
think that that has been a discussion here, but it is my 
understanding that the AU mandate is quite clear and they do 
have the capacity under their mandate to protect civilians, but 
that that word has not gotten out to the units uniformly.
    Senator Obama. OK.
    Ms. Frazer. So part of it is absolutely clarifying that 
mandate to the various units. Some units, national units, act 
one way; others sit back. We need to make sure that the force 
commanders out there----
    Senator Obama. So I just want to be clear. Under your 
understanding, under the existing mandate that exists, they can 
protect civilians against janjaweed and the Sudanese government 
has authorized such intervention?
    Ms. Frazer. That is right.
    Senator Obama. That is your understanding?
    Ms. Frazer. That is right. Part of the problem for the AMIS 
forces in protecting civilians is getting the equipment that 
they need, which is why we are trying to get the armored 
personnel carriers in there, because then they can have greater 
mobility and security for themselves. So we do need to increase 
their capacity. But in terms of the mandate, it is my 
understanding that they have the sufficient mandate to protect 
civilians.
    Senator Obama. When I met with the AU countries at the UN, 
part of--speaking to the resource issues that you are talking 
about, obviously they were hoping, I think, for more money from 
the UN and from the United States. My general view is I want to 
make sure that money is well spent and that there is 
accountability and transparency in terms of how that money is 
spent. Having said that, it does seem that these forces that 
are deployed are real strapped. So my question is what are we, 
either as the U.S. Government or through various UN bodies or 
through NATO or other mechanisms, what kinds of support are we 
giving them in terms of airlifts, food supplies, equipment, and 
so forth?
    Secretary Frazer.We have spent about $160 million and we 
have set up 32 base camps for the AMIS forces. So we have been 
a major contributor to them. We obviously also airlifted the 
Rwandan forces into Darfur. So we continue to support them 
materially. We have contractors out there working very closely 
with them. So I think that we are supporting them and if they 
need additional support we will look at how we can do that with 
the resources, if we can get the resources.
    Senator Obama. My time is up. Let me just say this. The 
administration generally has been better on this issue than a 
number of European countries. I have said that to Secretary 
Rice and I have said that to Ambassador Zoellick. I still do 
not get a sufficient sense of urgency at the highest levels on 
this issue. There is a lot of stuff going on in the world and I 
recognize that our foreign policy apparatus is rightly busy 
with Iraq and Afghanistan and the situation in the Middle East. 
But I have to say that I am getting a sense of drift right now 
in terms of the policy in Darfur. My hope would be that we 
start ramping up activity, including putting more pressure on 
other countries to get involved in this issue, because right 
now we have an enormous number of people who have now for a 
year, year and a half, been living in camps, and there is a 
crisis that is going to explode at some point if we do not 
catch it now.
    Thank you, Mr. Chairman.
    Secretary Frazer.Senator Obama, if I might, I understand 
exactly what you are saying, and I think that we do feel the 
urgency. Ambassador Zoellick, our Deputy Secretary, has been 
there four times. He just returned. I have been there three 
times in the last month, or I am going tonight, so it will be 
three times in one month that I am going out to Darfur. I can 
assure you that this is getting the highest level attention 
from President Bush, Secretary Rice, Deputy Secretary Zoellick, 
myself and others, Andrew Natsios and others. So we do need to 
fix this. But as I said, a lot of attention has to be focused 
to support the AMIS force, but also to really push hard for a 
political settlement, which is why I am getting on a plane 
tonight.
    Senator Obama. Absolutely. That is not just true in Darfur, 
that whole political settlement issue.
    Secretary Frazer.Yes, sir.
    Mr. Pierson. Mr. Chairman, may I also add----
    Senator Obama. Please.
    Mr. Pierson [continuing]. To what the Assistant Secretary 
has said in terms of urgency? By far the majority of time, 
effort, and money in the Africa Bureau at USAID is spent on 
Sudan-related issues. In this past fiscal year, approximately 
$850 million got strong bipartisan support, but approximately 
$850 million has been spent in Sudan by the United States, both 
in terms of humanitarian assistance and development assistance 
in the south. That number we expect to go up in the next fiscal 
year.
    We do understand your comments, sir, but I will assure you 
I think both from the Department of State, throughout the 
administration, and USAID, we view those problems, as well as a 
number of issues in Africa, that we are trying the address them 
on a very urgent manner. I have been to Darfur, I have been to 
the South, and when you see the suffering there and understand 
some of the complexities of the issues, you can only come away 
thinking of it in terms of human life and you have to deal with 
it urgently.
    Senator Obama. Mr. Chairman, I know I am out of time and I 
am not trying to get the last word here, but I just want to 
say, a lot of the activity you are talking about has to do with 
the North-South issues. Those are important and we want to 
preempt additional problems--and obviously Garang's death 
increased those problems. So we have been dealt a bad hand. You 
guys personally, I know, have been putting time into this issue 
and I very much appreciate it. But the spotlight is not being 
shown on this right now. There is not sufficient discussion in 
my view, not simply in the press, but in the UN. We are not 
pressuring our allies more vigorously to get involved and 
engaged in this process. So I know it is tough, and I know you 
personally have been committed to this issue, but we need to 
ramp it up.
    Senator Martinez. My intent was to perhaps delve a little 
longer with this panel, but we are going to move along to the 
second panel. I want to thank you both for being here. Madam 
Secretary, I want to wish you very great success in your trip 
today. I know how important that is. I know with Secretary 
Zoellick's continued, repeated visits that it is hard to 
conceive of how we could be adrift. I think you have shown 
great interest and concern. So I commend you and wish you well 
on your trip this evening.
    Secretary Frazer.Thank you, Mr. Chairman.
    Senator Martinez. We want to at this time, because of the 
vote upcoming, move to the second panel and welcome them to the 
table. Thank you. For our second panel we have Victoria Holt, a 
senior associate of the Henry L. Stimson Center here in 
Washington, and Jennifer Cooke, co-director of the Africa 
Program at CSIS. We welcome you both and thank you both for 
being here. The last time we went from right to left, so this 
time we will go from left to right and, Ms. Cooke, we will hear 
from you first for your opening remarks.

 STATEMENT OF JENNIFER G. COOKE, CO-DIRECTOR, AFRICA PROGRAM, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ms. Cooke. Chairman Martinez, Senator Feingold, I am 
grateful to you for the opportunity to speak today on the 
important subject of African regional organizations. I am going 
to concentrate my remarks primarily on the launch of the 
African Union and how best the United States can assist it. I 
will give a brief summary of my written remarks.
    Senator Martinez. Your full remarks will be made a part of 
the record. That is fine.
    Ms. Cooke. As we heard from Secretary Frazer, the formation 
of the African Union in 2001 signaled a new determination among 
key African leaders to take greater responsibility for shaping 
the continent's future. Most significantly, these leaders 
consciously committed the AU to play a more proactive role in 
ending Africa's conflicts and in setting credible new norms for 
economic and political governance.
    This shift is still early and in its fragile stages and we 
should not be surprised if it is a little uneven and if it 
takes time to really consolidate itself. But it is already 
beginning to generate some early promising returns. It is being 
called upon to play a lead role in some of the continent's most 
formidable crises, among them Togo, Cote d'Ivoire, Mauritania, 
and of course Darfur.
    Mr. Chairman, as the AU's new role has unfolded it has 
become increasingly clear that U.S. interests in Africa are in 
close alignment with and indeed interdependent with those of 
the African Union. We see this in Darfur, but also well beyond 
Sudan. Over the last decade there has been a dramatic rise in 
U.S. interests in Africa, in counterterrorism, energy, HIV-
AIDS, answering the threat of genocide, promoting democracy, 
and ending chronic wars. There is increasing bipartisan 
consensus in Congress, in successive administrations, within 
the American public, to help address Africa's challenges and 
encourage and support promising trends. But to meet these 
rising U.S. national interests, we need competent, like-minded 
partners on the continent. The African Union is just such a 
partner. It is not without uncertainty, it is not without 
problems, but it is nonetheless a promising partner. It has 
embraced many of the same values and goals that animate U.S. 
policy.
    Mr. Chairman, it is in the U.S. national interest to 
support the Nation's sense of collective African 
responsibility. This goal should be a long-term priority of 
U.S. foreign policy. For the United States to be successful in 
this arena, however, it will need to take three steps to build 
more systematic, reliable, bipartisan U.S. engagement. A 
critical first step is for the United States to appoint a fully 
accredited U.S. Ambassador to the African Union. I was pleased 
to hear that this is under discussion. I think this is an 
excellent idea. The United States has taken this step with 
other regional organizations, to the considerable benefit of 
U.S. foreign policy interests. Such an appointment will help 
ensure consistency of U.S. approach. It will signal the 
seriousness with which we take the AU and it will allow a 
single focus point for U.S. engagement, both on immediate 
priorities and on longer-term goals. It is not a costly step, 
nor is it premature. If anything, it will provide additional 
oversight over the multiplying streams of U.S. assistance to 
the AU.
    A second critical step is for the U.S. to define a 
realistic, dynamic strategy of long-term engagement with the 
AU, tied, importantly, to reliable baseline year to year 
funding. The United States should be looking out at least a 
decade in this engagement and begin setting targets for 
support, either in absolute dollar amounts, or as a percentage 
of international support. Currently U.S. support to the AU is 
ad hoc, it is crisis-driven and it is very uneven and 
unpredictable from year to year. We need to fix this. To help 
the AU to work more closely with our European partners, we need 
to be more predictable in this.
    Priorities for our support should include targeted training 
and flexible support to build mediation capacities, 
strengthening regional peacekeeping capacities--and we have 
heard some on that; I think we will hear more from Victoria--
encouraging norms on governance and economic stewardship, both 
in our bilateral relations and in supporting emerging AU 
mechanisms, and helping strengthen AU action and consensus on 
infectious disease and environmental stewardship. In all these 
areas, the United States has special expertise to contribute.
    Third, the United States has to respond more effectively to 
the ongoing emergency in Darfur. Beyond the evident 
humanitarian costs of the conflict, the current intervention is 
an early test of AU commitment, capacity, and credibility of 
future efforts. We cannot allow this mission to fail. The 
administration is to be commended for the critical high-level 
attention it has given to this crisis, but U.S. leadership 
should push for an expanded U.S. peacekeeping role in Darfur. 
This request has to come from the AU if it is going to fly 
within the Security Council. We need to urge AU leadership to 
put a direct and persuasive request to the Security Council to 
partner with the AU in Darfur.
    The United States should also work to place greater 
diplomatic pressure on the parties to the conflict, potential 
regional spoilers, and international stakeholders. President 
Bush, for example, has a prime opportunity this week to signal 
to the Chinese government the importance he attaches to Darfur 
and to ask China for greater cooperation in resolving the 
crisis there. We also need to ensure, though, that in 
responding to this crisis we do not undermine efforts to build 
enduring AU capacities. U.S. support will be critical to the 
African Union's future and the African Union's success will be 
important to advancing U.S. stakes in Africa.
    The administration is to be commended for its current 
support to the AU and to the negotiations in Darfur, but to 
build a long-term reliable partner, the United States can do 
more and should build an approach that is coherent, 
predictable, institutionalized, and well-led at a senior level. 
Supporting the trend towards African ownership and 
responsibility warrants such an approach.
    Mr. Chairman, Senator Feingold, I want to thank you for 
your attention and for the opportunity to speak with you today.


    [The prepared statement of Ms. Cooke follows:]

  Prepared Statement of Jennifer Cooke, Co-Director, African Program 
             Center for Stragetic and International Studies

                              INTRODUCTION

    Chairman Martinez, and members of the subcommittee, I am grateful 
to you for the opportunity to appear here today to speak on the very 
important subject of the African Union. I will concentrate my comments 
on the launch of the African Union and how best the United States can 
assist it.
    In 2001, the transformation of the Organization for African Unity 
into the African Union signaled a new determination among several key 
African leaders to take greater responsibility for shaping the 
continent's future. Most significantly, these leaders consciously 
committed the AU to play a proactive role in ending Africa's conflicts 
and in setting credible new norms for economic and political 
governance. They stirred the AU to come out openly in opposition to 
military and other forms of egregious misrule, to fight corruption, and 
to embrace the principle of self-criticism and peer review.
    This shift was a conceptual and political watershed. It emerged 
from the 1990s when a proliferation of African crises--in Somalia, 
Rwanda, the Democratic Republic of Congo, Sierra Leone, and others--
wreaked untold misery on African populations, while the OAU stood on 
the sidelines, quiescent and utterly ineffectual, shielded by its 
founding principles of the sanctity of state sovereignty and non-
interference. With the formation of the African Union, and a parallel 
initiative, the New Economic Partnership for African Development 
(NEPAD), a new consensus began to emerge around the paradigm of human--
versus state--security, and the collective responsibility of Africans 
to protect that security. This has translated into a far greater 
willingness by African leaders to mediate conflicts among their 
continental neighbors and to begin to lay down standards of good 
governance, economic stewardship, and meeting basic needs in health, 
education, and other social services.
    These steps led to the creation in 2003 of the AU Peace and 
Security Council, plans for the eventual creation of a continent-wide 
African Standby Force, and the ambitious embrace of a lead role by the 
AU in both brokering a peace settlement and putting in place a major 
peace operation in the Darfur region of Sudan. At the same time, the AU 
has assumed responsibilities for ending internal conflict and misrule 
in Burundi, Togo, Mauritania, and Cote d'Ivoire. On a parallel track, 
the AU is moving forward with a newly formed African Peer Review 
Mechanism to evaluate governance among states that volunteer for 
review.
    This pivotal change is still at an early, fragile stage. The new 
norms are an aspiration. They are often violated, as the case of 
Zimbabwe shows only too clearly. Implementation of the change is 
uneven, and the AU remains heavily dependent on external support. The 
institutional architecture envisioned for the AU is ambitious and 
broad, and yet at the moment these ambitions remain largely a 
framework, with neither depth nor capacity. Nor has the AU fully sorted 
out how it will relate to the multiplicity of other African 
institutions and initiatives, many of which overlap: the regional 
economic communities, the African Inter-Parliamentarian Union, the 
African Commission on Human and Peoples' Rights, and others. Action 
often depends on the inclination of key personalities within the AU, 
and on occasion, rivalry for influence hampers effectiveness.
    We should not be surprised that it takes time for a new regional 
body such as the African Union to launch itself. It took many years for 
other comparable regional bodies in Latin America, Asia, and Europe to 
acquire institutional capacity and build confidence both within and 
without their respective regions. The AU experience will not be 
fundamentally different. It is equally important to note that the 
advent of the AU has generated high expectations within Africa and in 
the international community and has begun to generate some early 
promising returns. Indeed, the AU is already being called upon to play 
a lead role in some of the continent's most formidable crises.
    Mr. Chairman, as the AU's new role has unfolded, it has also become 
increasingly clear that U.S. interests in Africa are in close alignment 
with--indeed interdependent with--those of the African Union. That 
intersection is most poignantly seen in Darfur, but also reaches well 
beyond Sudan. Over the last decade there has been a dramatic rise in 
U.S. strategic interests in Africa: in combating terrorism, ensuring 
steady and reliable energy supplies, combating the HIV/AIDS pandemic, 
preventing mass atrocities and answering the threat of genocide, 
promoting democratization, and ending Africa's chronic wars that 
undermine hope for economic growth and development within an expanding 
global economy. There is increasing bipartisan consensus, in Congress, 
in successive administrations, and among the American public to help 
address the challenges that Africa faces and to encourage and support 
promising trends and initiatives.
    To meet these rising U.S. national interests in Africa requires an 
effective U.S. policy that looks out into the future and that 
identifies competent and like-minded partners on the continent. The 
African Union is just such a key emergent partner, not the sole option, 
and not one without uncertainty and problems, but nonetheless an 
important and promising partner. It has embraced many of the same 
values and goals that currently animate U.S. policy, and is showing 
early progress. Conversely, the African Union's continued future 
progress rests to a significant degree on its success in building 
effective external partnerships, most importantly with the United 
States and the European Union.
    For these reasons, it is in U.S. national interests to support the 
nascent sense of collective African responsibility embodied in the 
African Union and to work assiduously to build a strong, enduring 
partnership with the AU. That goal should be a long-term priority of 
U.S. foreign policy.
    For the United States to be successful in this arena, however, it 
will need to take three steps to build a more systematic, reliable, bi-
partisan, and long-term U.S. engagement with the African Union.


    1. A critical first step is for the United States to appoint a 
fully accredited U.S. Ambassador to the African Union. The United 
States has taken this step with several other regional organizations 
(NATO, OAS, ASEAN, EU) to the considerable benefit of U.S. foreign 
policy interests. Such an appointment to the AU, with adequate 
authority and staff support, will help ensure consistency of U.S. 
approach, signal the seriousness of U.S. purpose, and allow a single 
focal point for U.S. engagement on both immediate priorities and the 
longer-term challenges that the AU will face. This is not a costly 
step, nor is it premature. If anything, it will provide additional 
valuable oversight of the multiplying streams of U.S. assistance to the 
AU.

    2. A second, critical step is for the United States to define a 
realistic, dynamic strategy of long-term engagement with the AU, and to 
tie that strategy systematically to consistent, reliable baseline 
funding. The United States should be looking out at least a decade in 
this engagement and begin setting targets for support, either in 
absolute dollar amounts or as a percentage of support requirements. 
Currently U.S. support to the AU is ad hoc, crisis-driven, vulnerable 
to raids from other budget lines, and uneven from year-to-year. If the 
U.S. is to be credible and reliable in assisting the AU to acquire key 
new capacities, it needs to break consciously with current practices. 
Sectoral priorities for financial and technical support should include:

          i. Helping build the AU's capacity to resolve conflicts 
        though targeted training and support of mid-level mediators, 
        expanding the competence of negotiating teams beyond the 
        senior-most echelons; and strengthening regional peacekeeping 
        capacities, notably the planned African Standby Force;

          ii. Helping to standardize and strengthen emerging norms on 
        governance and economic stewardship; and

          iii. Helping strengthen approaches to chronic and infectious 
        diseases (to include HIV/AIDS, TB, and malaria) and the 
        environment. In all of these areas, the U.S. has special 
        expertise to contribute.

    3. Third, the United States must respond more effectively to the 
ongoing emergency in the Darfur region in Sudan. This will require (as 
outlined below) heightened U.S. leadership to facilitate an expanded 
U.N. peacekeeping role in support of the AU in Darfur and greater 
diplomatic pressure on the parties to the conflict. It will also 
require special care that the U.S. response to this immediate crisis 
does not weaken the U.S. resolve to build enduring AU capacities over 
the long-term. The United States should not mortgage the AU's future to 
finance its current, urgent emergency requirements. The United States 
and the EU alike suffer from this malady, and each needs somehow to 
learn how simultaneously to balance meeting immediate urgent 
requirements like those in Darfur while also addressing the AU's long 
term capacity requirements.

               THE IMMEDIATE CHALLENGE: CRISIS IN DARFUR

    The United States should use all its persuasive power to encourage 
the African Union to partner with the United Nations and request an 
alignment of AU and U.N. forces in Sudan, and, together with the 
international community, to pressure the Government of National Unity 
in Khartoum to acquiesce.
    The most immediate and pressing challenge for the African Union is 
the crisis in Darfur. Beyond the evident humanitarian costs of the 
conflict, the current security operation and mediation efforts under 
way are an early test of AU commitment and capacity. Success of this 
mission is critical, not only for the people of Darfur, but for the 
longer-term prospects of AU interventions. And right now that 
intervention is in crisis.
    The world's first priority there must be to fix the security 
situation, which is disintegrating into an increasingly diffuse mix of 
banditry, retaliation, and breakdown of command and control both within 
the fragmenting rebel movements and on the government side. There can 
be no progress on political mediation until there is some restoration 
of order, some control over cross-border trafficking in arms and 
support, an effective clamp-down on Eritrean, Libyan and Chadian 
meddling in the conflict, and heightened pressure on Khartoum. This is 
clearly beyond the AU's current capacity.
    The United States has committed $167 million to the AU mission in 
Darfur. And as Deputy Secretary Zoellick stated earlier this month, in 
areas where they have deployed, security has improved. But the African 
Union itself, currently with just over 6,000 troops on the ground, has 
acknowledged that it will be near impossible to get 13,000 troops 
deployed in any reasonable timeframe. The recent kidnappings and 
killings of AU troops and continued insecurity in Darfur are proof that 
the African Union at this stage, despite commitment and commendable 
performance, does not have the capacity to fulfill this daunting task.
    At this point, our best and most realistic option would be for the 
U.N. Security Council to enlarge the ambit of its Sudanese peacekeeping 
operation, to allow support for the AU mission in Darfur. It simply 
makes no sense to have 10,000 U.N. troops in Sudan, mandated to monitor 
and support implementation of the Comprehensive Peace Agreement, 
parallel to an AU force in Darfur, but forbidden from intervening in 
that area of the country that most needs security. But for the Security 
Council to take this step to merge the two missions, the request will 
need to come--directly and persuasively--from the African Union itself. 
A merger of this kind need not undermine or detract from the 
accomplishments, responsibility, or command structure of the AU forces 
on the ground, but rather will signal a mature acknowledgement of what 
is required to uphold the responsibility to protect.
    The United States and other key players should lend political 
support to AU mediation efforts in Abuja by assigning senior, empowered 
advisers and mediators to the talks; by making available quick and 
flexible financing for training and technical assistance; by exerting 
diplomatic pressure to minimize the role of potential regional 
spoilers; and, in consultation with AU mediators, by continuing to 
build unified, international pressure on both the rebel groups and on 
Khartoum to make demonstrable progress in fulfilling their promises and 
negotiating in good faith.
    The Darfur negotiations in Abuja will be stalled unless there is a 
change in the security situation on the ground. That said, since 
negotiations began last year, the AU mediation team has improved 
dramatically in competence, organization, operational capacity, and 
openness to external assistance. The African Union's Special Envoy for 
the Darfur Talks, former Tanzanian Prime Minister Salim Ahmed Salim, 
has proven an adept and able leader, and according to those involved in 
the negotiations has made a real difference. If the AU, with U.N. 
assistance, can exert a modicum of control over the security situation 
in Darfur, the AU talks, with focused multilateral support may be able 
to make some headway in reaching a negotiated settlement. But here too, 
they will need substantial support from the international community.
    The division between the two factions of the SLM is both a threat 
to security and an obstacle to peace negotiations. Neither the U.S. nor 
the AU can dictate who should represent the SLM at the peace 
negotiations. However, until they resolve their internal differences, 
our only option is to recognize a de facto situation of two parallel 
movements. In the light of this, it is essential that the U.S. make 
clear that hostilities between the two factions are unacceptable. The 
African Union should not be tasked with sorting out the thorny question 
of SLM representation when the peace talks begin. Rather, the U.S. and 
other international partners should adopt a common position and do 
their utmost to ensure SLM agreement in advance.

              MANY CRISES, LITTLE CAPACITY, MIXED RESULTS

    Darfur is currently the most pressing challenge that the African 
Union's peace and security architecture faces, and the one that for 
many reasons has garnered the most international attention. But the 
organization has interceded in a number of other African crises and 
today continues to grapple with multiple complex crises. And for the 
foreseeable future, it will not lack for crises. The situation in the 
Democratic Republic of Congo, rising tensions between Ethiopia and 
Eritrea (and within Ethiopia itself), a deteriorating situation in 
Chad, and the failed state of Somalia, are among the situations where 
the African Union will likely be expected to play an increasingly 
active role.
    Even in Darfur, notwithstanding the enormity of the catastrophe and 
the momentous international attention generated, the African Union 
mediation effort was slow in starting, initially disorganized, and 
divided on how much external involvement would be acceptable. Darfur 
and other interventions that have received much less international 
attention and support have illustrated the critical need for longer-
term capacity building and institutionalization. A number of the most 
senior envoys in these efforts have been outstanding statesmen, and 
highly effective. But at more junior and mid-level echelons, there is 
often a lack of mediation, administrative, or managerial experience and 
capacity, making it difficult for the organization to prioritize, to 
manage external assistance, or adequately plan. The majority of AU 
interventions remain heavily contingent on the inclination of the most 
powerful AU leaders, most notably President Obasanjo of Nigeria and 
President Mbeki of South Africa, and the organization has not yet fully 
sorted out its relationship with regional organizations like SADC and 
ECOWAS in determining which body should intervene in given situations.
    Finally, the African Union should not be expected to shoulder the 
responsibility for Africa's most intractable conflicts alone. In many 
of these conflicts, only a strong concerted multilateral effort will be 
able to generate the pressures and incentives necessary, with the AU as 
a key--or ideally a leading--negotiating presence.
    Some examples from previous AU interventions point to the potential 
and actual gains from AU initiatives along with the need for greater 
international support to them.


    Burundi--African Union engagement in Burundi was considered an 
important first test of the organization's commitment and capacity to 
promote peace and security in Africa, and by most accounts the AU's 
role was crucial in consolidating the Burundian peace process, as well 
as bolstering the organizations confidence in carrying out its new 
mandate. However, a number of considerations should be kept in mind.
    First, the AU intervention in Burundi was driven largely by the 
personal leadership of then AU chair Thabo Mbeki, who saw the 
deployment as an opportunity to demonstrate the new AU commitment to 
the responsibility to protect. South Africa provided the majority of 
the AU troops.
    Second, the African Union was not alone in the process. The Arusha 
Accord of 2000, a first major breakthrough in Burundi's peace process, 
called for a U.N. peacekeeping operation, but absent a comprehensive 
cease-fire agreement the U.N. would not authorize the mission. The AU 
peacekeeping operation therefore, deployed in April 2003, was conceived 
and implemented as an interim, bridging force. The 3000-plus AU troops 
were absorbed into a larger U.N. force of 5,650 little over a year 
later in June 2004, in direct response to a request from the AU. The 
transition from an AU to U.N. force was smooth, with the AU command 
structure left largely intact, and troops on the ground re-hatted as 
U.N. forces.\1\
---------------------------------------------------------------------------
     See Kristiana Powell, The African Union's Emerging Peace and 
Security Regime, Institute for Strategic Studies, Pretoria, 2005.
---------------------------------------------------------------------------
    Third, while the African Union mission paved the way for the U.N. 
deployment by bringing a modicum of security while cease-fire 
negotiations were underway, it by no means had the capacity--in 
numbers, equipment, or financial capacity to implement the robust 
mandate required--including protection of civilians, disarmament, 
demobilization, and reintegration. The process might have floundered 
badly had not the U.N. come in with the manpower, equipment, resources, 
and experience to get the job done. The African Union mission was 
blessed with the excellent negotiation skills and staying power of AU 
envoy Mamadou Bah, backed by senior South African leadership, but 
crucial to the mission's success was the close collaboration with, and 
generous support from, the United States, the UK, and the United 
Nations, all of which invested significant diplomatic and financial 
resources in the effort.


    Togo--Among the most striking shifts since the establishment of the 
AU has been that coups within member states, once a fairly regular and 
unremarkable occurrence in the African context, are now deemed 
unacceptable and generally provoke a strong condemnatory reaction from 
the AU membership. When President Gnassingbe Eyadema of Togo, died in 
office after ruling the country for 38 years, the military appointed 
his son Fame Gnassingbe as president and pushed the national assembly 
to amend the constitution retroactively to make the move technically 
legal. The African Union acted quickly, labeling the move a coup and, 
with unanimous endorsement of the AU Peace and Security Council, 
imposed diplomatic, travel and arms sanctions on the Togolese state. 
Bowing to pressure by the African Union and regional leadership, 
Gnassingbe announced that Presidential elections would be held, and 
lifted, albeit partially, a ban on political activity.
    The Togo example is not an unqualified success. Although the AU 
forced an electoral process, the elections were deeply flawed and 
political participation in Togo remains severely constrained. The 
African Union has yet to come to terms with the limits of national 
sovereignty, and so far has been loath to offer frank assessments of 
even the most blatantly shoddy election processes. Nor does the AU have 
the capacity or staying power to exert high-level, long-term follow-up 
pressure and attention in these instances.


    Mauritania--When a coup in Mauritania in August 2005 unseated 
President Ould Taya, an unpopular autocrat, the African Union quickly 
condemned the move and suspended the country's membership from the 
organization. Although the AU did not push to have Taya re-installed, 
it has insisted on a timetable for elections and a transfer to civilian 
rule. The Mauritania coup illustrates a broader concern of how the 
United States can support the goals and the norms that the African 
Union is attempting to set. There is some conjecture that the United 
States' fairly uncritical embrace of Taya on counter-terrorism 
operations fueled popular discontent, since Taya used that engagement 
to legitimate his rule and sideline dissenters. This illustrated the 
broader point of how U.S. engagement with African leaders needs to be 
carefully calibrated to reinforce the governance norms that the African 
Union is seeking to promulgate. In coming years, the U.S. will need to 
grapple with how to integrate short-term security concerns with the 
longer-term challenges of democratization and popular participation.


    Zimbabwe--Finally, Zimbabwe reveals most clearly the African 
Union's limitations. The AU--as well as much of the rest of the world--
has relied almost exclusively on South African President Mbeki for a 
political solution to Zimbabwe's crisis, and Mbeki, for political and 
philosophical reasons, has been so far unwilling to take meaningful 
action. The AU is paralyzed; although some individual states--Senegal, 
Kenya, Ghana--have voiced cautious disapproval of Zimbabwean leader 
Robert Mugabe, many are loath to criticize an elder statesman and 
former front-line leader. Further, Mugabe has fairly skillfully 
appealed to populist sentiments in South Africa and elsewhere in Africa 
by portraying the opposition as merely a front for Western neo-colonial 
interests. U.N. Secretary General Kofi Anan's naming of Special Envoy 
Anna Tubaijuka to report on the mass housing demolitions in spring 2005 
nudged Mbeki to name former Mozambican President Joaquim Chissano to 
mediate between Mugabe's ruling ZANU-PF and the opposition MDC. But 
President Chissano was rebuffed by Mugabe, and ZANU-PF has only 
intensified its efforts to silence the opposition.
    Public opinion may be shifting in South Africa the housing 
demolitions, which were broadcast on South African television, were 
starkly reminiscent of apartheid-era tactics--but the international 
community cannot rely on quick AU action. The United States and others 
will need to continue to seek common ground with the African Union, 
both in perception of the problem and in looking toward solution. But 
this should not stymie consideration of other options, for example, 
broadening bilateral and U.N. pressures through additional 
investigations and rapporteurs. The United States will need to prepare 
for the worst case scenario in Zimbabwe, a possible collapse of the 
Zimbabwean state, which would demand close cooperation between African 
states and international partners to address.

         BEYOND CONFLICT: ESTABLISHING STANDARDS FOR GOVERNANCE

    Perhaps the greatest role the African Union can play over the long-
term is addressing the root causes of conflict, most importantly in 
setting norms for good governance, economic management, environmental 
stewardship, and investment in health and education. This will be a 
long and gradual process, but one that is well-worth supporting. A 
number of promising initiatives are today in their infancy.
    The innovative African Peer Review Mechanism, for example, measures 
participating states' performance against political, economic, and 
corporate governance standards. To date, 23 countries have signed up 
for peer review; two of these reviews have been completed and several 
more are under way. Countries initially undergo a self administered 
internal review, followed by an outside assessment. A final report, 
including plans for corrective measures is discussed among AU heads of 
state, and countries volunteering for review.
    The Abuja Declaration on HIV/AIDS, Tuberculosis, and other Related 
Infectious Diseases of 2001, was an important symbolic achievement. 
African leaders collectively acknowledged the exceptional threat HIV/
AIDS poses to development, political stability, food security, and 
social cohesion, and pledged to set a target of allocating 15 percent 
of annual budgets to their countries health sector.
    Other proposed measures include a continent-wide early warning 
system, intended to link regional early warning reporting with the AU 
Peace and Security Council; an African Productive Capacity Initiative 
intended to strengthen African industrial capacities and regional 
integration; and a post-conflict reconstruction commission. Today, it 
is difficult to guess which of these initiatives will eventually 
flourish, but the United States and international community can work 
with the AU leadership as the organization sets priorities and crafts 
longer-term strategies.
    U.S. support will be critical to the African Union's future. And 
the African Union's success will be important in advancing rising U.S. 
stakes in Africa. The administration is to be commended for its current 
support to the AU and to the negotiations in Darfur. However, to help 
build a long-term, reliable partner, the United States can do more, and 
should build an approach that is coherent, predictable, 
institutionalized, and well-led at a senior level. Supporting the trend 
toward African ownership and responsibility warrants such an approach.
    Mr. Chairman, I want to thank you again for bringing attention to 
these important issues and for the opportunity to speak with you today. 
Thank you.

    Senator Martinez. Thank you very much.
    Ms. Holt, we will hear from you now. Thank you.

 STATEMENT OF VICTORIA K. HOLT, SENIOR ASSOCIATE, THE HENRY L. 
                         STIMSON CENTER

    Ms. Holt. I too will summarize my remarks, so I hope that--
--
    Senator Martinez. The full remarks will be made a part of 
the record. Thank you very much.
    Ms. Holt. Thank you. Mr. Chairman, Senator Feingold, it is 
a pleasure to be here. I know we are a bit short on time, so I 
thought I would hit some high points.
    First, I will just put peacekeeping in context, look 
specifically at Africa and then make some recommendations as 
you look forward to your agenda for the coming year. First, 
congratulations, I think this is a very important issue. I 
think it is important for two reasons. The U.S. cares deeply 
about its own security and its national interests, and that is 
one reason we look at peacekeeping in Africa. We care about 
failed states. We care about ungoverned spaces. But we also 
have a humanitarian urge in this country and peacekeeping can 
serve that as well.
    Just a quick reminder, what is peacekeeping, before I talk 
about it in the Africa context? It is an effort to move violent 
conflict into political expression. It is not the answer to 
everything. It is not the equivalent of going in and fighting a 
war. But when it is done right it can be a very useful tool.
    What we have seen, which is quite impressive, is African 
leadership coming to take this on on their own continent in 
greater numbers, particularly with the African Union and with 
ECOWAS. But before I talk specifically about them, I should 
point out that peace operations and stability operations have 
grown worldwide. We see American troops in Iraq and Afghanistan 
and the Balkans. We see a military stretched beyond an area 
that we have seen before. So as a result, I think we also look 
at African leadership because Africa has been the host to more 
peacekeeping in the last few years than any other continent. 
Eight of the 16 UN operations today are in Africa. Seventy-five 
percent of UN peacekeepers now are working there. Some of these 
missions are large and complex.
    So what does that mean in the context of the African Union? 
Well, since 2002 it has taken on, as we have already heard, two 
new peacekeeping operations, first in Burundi and now in 
Darfur. ECOWAS has had a longer history of peacekeeping through 
the 1990s, but has also taken on ambitious operations--Sierra 
Leone, Cote d'Ivoire, and Liberia--most recently. But we should 
not mistake their willingness, their personnel, and their speed 
of deploying troops, as well as their understanding of the 
regional issues and the willingness to live in difficult 
situations, which are all vastly important and critical, with 
the capability that we usually equate with successful 
operations. So just a note of caution.
    Headquarters of both ECOWAS and AU are roughly two dozen 
people. This is a vast improvement over 5 years ago, when you 
might have found one or two people there. But this is why it 
matters. We need to think about how we help them with planning 
and management. We know well that their member states cannot 
financially support them at this time. We know also that they 
need logistics and transportation and many of basically what I 
call surround-sound, particularly the handoff to what the UN 
calls peace-building. We want rule of law to last. They need 
better expertise in how to convey that. For a long time, that 
is going to be reliant on the UN to come in and help them with 
that kind of work.
    In general this is a good news story. I think that an 
excellent leadership effort has been going on. But I do not 
think this is a situation where at this point we can see them 
take on missions that we usually equate with the capabilities 
of the UN, and in some cases, NATO and the European Union, if 
not MNFs.
    One more note on the UN and then I will move to U.S. policy 
options. One thing we could really do to assist better 
coordination, this sort of ``all boats rise'' approach, which I 
think would benefit us, is if we enabled the United Nations to 
work better with the African Union, ECOWAS, and with SADC and 
IGAD, as they emerge more into peacekeeping. What do I mean? 
The UN is designed to support UN operations. They do not have a 
mechanism currently, formally, to work with these regional 
groups. They were able to do it in Darfur, basically by using 
another device, a special political mission. But it would do us 
well to think about this and have a few people whose job it is 
to work with these organizations, to help them plan and then 
help with the inevitable handoff, which we may see in Darfur, 
but we have already seen in Liberia, Burundi, Cote d'Ivoire and 
other places; it could be smoothed out and work better. We 
would all benefit from that.
    Real quick on U.S. policy: The United States, in general, 
does not do peacekeeping in Africa, certainly not since the 
last large mission in Somalia. So our strategy tends to be to 
support other actors. We do this through training, we do the 
support to operations, we do this through support to regional 
organizations and through paying our assessments to the UN and 
voting on the Security Council.
    Two accounts that you need to look at that support all of 
this. The voluntary Peacekeeping Operations account in the 
State Department is around $200 million this year. 
Appropriators cut about $20 million out of it. That houses all 
of our Global Peace Operations Initiative and other training. 
It houses our bilateral support to operations and it hosts all 
of our bilateral support to ECOWAS and the AU, which is great 
work. But I worry that we need at least $75 million for our 
support to Darfur for this year, so we already start out with a 
bit of a shortfall. Our dues to the UN certainly has caused 
some sticker shock up here. We are looking at over a billion 
dollars being required for the coming year. If State was candid 
with you, they would say that is about $500 million short, what 
you just sent them, for what they are actually going to need. 
It is fair of us to ask hard questions about these peacekeeping 
budgets, but we vote for them on the Security Council. And if 
they work, then we will have a better chance of success, both 
on the peace-building piece and going in correctly. So I need 
to flag those two accounts to you and to suggest thinking 
about, in the coming year, how we can make those programs work 
better.
    Finally, in addition to the UN mechanism and funding, I 
have to mention Darfur briefly. I agree that there is mission 
mandate language that talks about civilian protection. It is 
much like the language in most of UN peacekeeping operations. 
But the AU cannot do this without stronger political leadership 
and potentially a deterrent that can back them up. I think we 
have heard some good options in testimony in full committee. I 
do worry that Deputy Secretary Zoellick is correct, that Darfur 
remains a tinderbox and that we do need to look at the security 
question if we are going to get to a political solution.
    Finally, it is never popular for Congress to ask for more 
reports, but I might suggest to the subcommittee it would be 
very helpful if you could ask the administration, particularly 
State, to come back to you and bring together these various 
programs that they are presenting. We did not touch on 
counterterrorism today, but much of the training we are going 
to be doing in Africa will overlap with peacekeeping. We have 
varied accounts, and excellent people working in the 
administration on this, but particularly as you start out the 
new year, it might be nice to have this in one place to help 
guide your discussions as we look at both our interests in 
security and our humanitarian concerns in Africa.
    Thank you.


    [The prepared statement of Ms. Holt follows:]

       Prepared Statement of Victoria K. Holt, Senior Associate, 
                      the Henry L. Stimson Center

    Chairman Martinez, Senator Feingold, members of the committee, it 
is an honor to testify before you today on the role of African 
leadership and organizations in regional conflict management and peace 
operations. I applaud the committee's attention to this topic, and hope 
this discussion will draw needed attention to African-led endeavors, to 
our interests in the region, and to how the U.S. and international 
actors can better address and leverage success.

            OVERVIEW: AFRICAN SECURITY AND PEACE OPERATIONS

    First, let me offer some context. The world has increasingly turned 
to peace operations as tools to help support transitions from armed 
conflict to sustained peace. Today we see thousands of forces deployed 
worldwide, from Afghanistan to Haiti, from Iraq to the Sinai. As more 
civil wars end, regional crises calm, and democratic efforts look for 
support, peace operations are often the tool of choice for the 
international community. They are often sent to help prevent state 
failure, to support post-conflict reconstruction and to address aspects 
of humanitarian crises. Many of these multinational missions are large 
and complex, led as coalitions or by NATO, but increasingly by the 
United Nations and African actions.
    Africa has seen dramatic growth in peace operations over the last 6 
years, hosting more peacekeepers than any other region. The United 
Nations currently leads eight such operations on the continent: in 
Burundi, Cote d'Ivoire, the Democratic Republic of Congo (DRC), 
Ethiopia/Eritrea, Liberia, Sierra Leone, Sudan and the Western 
Sahara.\1\ Over 30 African nations contribute personnel to these 
missions, and in most cases, make up from one-quarter to one-half of 
U.N. forces.\2\
---------------------------------------------------------------------------
    \1\ In September 2005 the U.N. reported 68,513 peacekeepers 
deployed worldwide, with 53,702 in Africa. Peacekeepers include troops, 
military observers and civilian police. These numbers do not include 
civilian staff in the field or at U.N. headquarters.
    \2\ Data from the United Nations as of 30 September 2005.
---------------------------------------------------------------------------
    With the increased demand for security providers, the spotlight has 
also moved to African organizations and their efforts to manage 
regional crises. We see new African engagement in resolving conflicts, 
promoting democratic regimes, and strengthening multinational efforts. 
Fueled by ambitious leadership and prompted by multiple conflicts, the 
African Union (AU) and the Economic Community of West African States 
(ECOWAS) are developing greater capacity to tackle issues of regional 
peace and security. Both groups have deployed troops and led new 
peacekeeping missions, as seen in Burundi, Cote d'Ivoire, Darfur and 
Liberia. Other organizations are more focused on conflict resolution, 
such the Intergovernmental Authority on Development (MAD), with its 
efforts in Somalia and Sudan.
    More than a decade after the Rwandan genocide, the crisis in Sudan 
again brings international attention to the questions of intervention 
and peace operations. Which African groups have the will and mechanisms 
to plan, deploy, manage, and sustain peace operations effectively? What 
is their relationship to the United Nations and other multinational 
organizations? What role can and should the United States play?
    My testimony looks at three areas related to African security and 
peace operations.\3\ First, I will consider the emergence of African 
organizations in leading peace operations. Second, I will look at how 
these African organizations and their operations fit within the context 
of international efforts, especially those of the United Nations. 
Third, I will consider U.S. goals and how our policies support these 
efforts in Africa, including the situation in Darfur with the AU, and 
offer some options for Congress.
---------------------------------------------------------------------------
    \3\ This statement draws on my work at the Henry L. Stimson Center, 
including a study conducted with support from the U.S. Institute of 
Peace, African Capacity-Building for Peace Operations: U.N. 
Collaboration with the African Union and ECOWAS (2005).
---------------------------------------------------------------------------
    Second, let me argue that these issues are very important to the 
United States. As Americans, we view peace operations as serving U.S. 
strategic and security interests through preventing state failure, 
increasing stability, and moving conflicts into lively political 
expression rather than deadly armed warfare. We also view peace 
operations as a means to address our deep-felt concern for addressing 
humanitarian crises and supporting human rights, part of our commitment 
to act well in the world. These goals are inter-related, and serve both 
immediate and longer-term aims such as supporting democratic reforms 
and reducing terrorist havens, enabling trade and economic opportunity, 
and strengthening regional security and healthy governance.
Defining Peace Operations--A Tool For What?
    Peacekeeping missions are intended to provide temporary security 
and enable political efforts to take hold for sustaining peace. Such 
missions range from military observers overseeing disputed border 
areas, as in the U.N. mission in Ethiopia-Eritrea, to more complex 
operations involving disarmament of forces and establishment of the 
rule of law, such as in Liberia. These operations should be married 
with concurrent peacebuilding efforts that continue after the troops 
have left.
    Peace operations are never assured of success, however. Each 
mission is deployed with cautious optimism that a conflict can be 
brought to a conclusion--that peacekeepers will help the shift to a 
sustained peace--but the result ultimately rests with local actors. 
Even after international forces deploy, crises can remain challenging, 
as seen dramatically in Sudan and the DRC where conflict continues and 
keeps millions displaced, vulnerable and at risk of death. Peacekeepers 
should not be sent to wage war or substitute for political engagement, 
yet they often operate under difficult conditions, in dangerous 
neighborhoods with tenuous peace agreements, and with too little back-
up. When peace operations are not married with political support from 
member states, their jobs become even more difficult, especially for 
the nations volunteering troops and police. Peacekeepers put their 
lives on the line, as seen by the 86 U.N. personnel who died this year.

               AFRICAN ORGANIZATIONS AND PEACE OPERATIONS

Matching Political Will and Operational Capacity
    African leadership has helped bring a new era of engagement in 
security and support for peace efforts. Leaders such as Olusegun 
Obansanjo of Nigeria, Thabo Mbeki of South Africa and Alpha Konare of 
Mali have played public roles to bring the African Union and other 
initiatives into the forefront, in contrast to the criminal actions of 
Charles Taylor of Liberia and Charles Mugabe of Zimbabwe. Many others 
have contributed to peace efforts, such as Nelson Mandela's engagement 
with Burundi, as well as countless leaders who work in national roles 
or serve as envoys, diplomats and military leaders.
    As African nations develop greater capacity for peace operations, 
two multinational organizations stand out: the African Union and the 
ECOWAS. Both have adopted formal mechanisms with wide-ranging peace and 
security responsibilities, unparalleled in Asia, South America or the 
Middle East. Other regional organizations, such as the South African 
Development Community (SADC) and IGAD, can play a significant role in 
conflict resolution but are not yet able to deploy peace operations.


    The African Union. The African Union was born from the Organization 
of African Unity (OAU) in 2002. With 53 founding members (all African 
nations except Morocco), the AU is headquartered in Addis Ababa, 
Ethiopia. It has more authority to intervene in matters related to 
peace and security than its predecessor, which valued non-interference. 
The AU Constitutive Act embraces international cooperation, but also 
sets out an AU role ranging from mediation to forceful intervention.
    The AU has an ambitious agenda on the continent, and has already 
deployed two peace operations. In April 2003, the AU launched a mission 
in Burundi which would grow to over 3,300 peacekeepers, led by South 
Africa with troops from Mozambique and Ethiopia. The objective was to 
uphold the cease-fire agreement, support disarmament of armed forces, 
assist in establishing stability, coordinate with the U.N. and 
facilitate humanitarian assistance. More observers were supplied by 
Burkina Faso, Gabon, Mali, Togo and Tunisia. The AU mission in Burundi 
was established with the understanding that mission leadership would 
pass to the U.N. Indeed, the AU relied heavily on outside support from 
the U.N. and Western countries (including the U.S. and the United 
Kingdom) for logistics and funding. While there was cooperation among 
these actors, it was improvised, and the AU transitioned its mission to 
the U.N. in 2004.
    Building off its success in Burundi, the African Union launched its 
second mission in Darfur in 2004. This mission was much more ambitious, 
with the aim of monitoring a cease-fire agreement in an area equivalent 
to the size of Texas, where conflict and a humanitarian crisis 
continued at a level considered genocide by the United States. Today 
that mission has grown to nearly 7,000 personnel, benefiting from both 
willing African nations and major financial, logistical and operational 
support from the West and other developed states. Even as it has 
succeeded at many tasks, the AU faces fundamental problems.
    In addition, the African Union is also developing the African 
Standby Force (ASF), a force designed to be made of multidisciplinary 
contingents on standby in five regions of Africa. By 2010, the ASF 
forces are to be ready for swift call-up for missions ranging from 
observation to intervention against genocide. ECOWAS has endorsed a 
Standby Force, but has yet to develop specific doctrine or policies to 
support it. IGAD is slated to coordinate development of the Eastern 
African Standby Brigade (EASBRIG) and SADC is moving to create a 
standby brigade. Progress is slow, and coordination across the regions 
is challenging, reflecting the uneven distribution of support for the 
ASF and capability in regional groups.


    ECOWAS. Made up of 15 West African states, ECOWAS is the most 
advanced regional organisation in Africa in terms of peace operations. 
Based in Abuja, Nigeria, ECOWAS put boots on the ground during the 
1990s in Liberia, Sierra Leone and Guinea Bissau, with mixed reviews. 
ECOWAS' security-related responsibilities were further outlined in its 
1999 Protocol. They include resolving internal and interstate 
conflicts, strengthening conflict prevention, supporting deployment of 
peacekeeping operations and humanitarian relief missions. ECOWAS has 
also deployed peacekeepers to Cote d'Ivoire in 2002 and Liberia in 
2003.
    ECOWAS forces deployed to Liberia in July 2003 with troops from 
Ghana, Senegal, Mali and Nigeria, backed up by U.S. Marines, and later 
by U.N. personnel and the multinational group, the Standby High 
Readiness Brigade. The ECOWAS forces made a strong impact, stabilizing 
the country even as they faced deployment delays, equipment shortages 
and limited communications and information systems. The mission later 
transitioned to U.N. leadership, with ECOWAS forces being ``rehatted'' 
as U.N. troops.


    Common Challenges. With these operations, African organizations can 
be misunderstood as having more capacity than they actually possess. 
Certainly progress is clear: the AU and ECOWAS have adopted frameworks, 
increased their headquarters staff, built better planning capacity, and 
worked with member states and outside partners to organize, deploy and 
manage peace operations. But both organizations face substantial 
hurdles.
    The AU and ECOWAS have deployed troops, but they are not self-
sustaining and require outside logistical support. They face 
fundamental gaps in their planning and management capacity to lead 
peace operations. Their headquarters staff total a few dozen 
professionals; the most skilled are taxed by the requirements of their 
(often multiple) responsibilities. The AU and ECOWAS are reliant on 
external sources to finance their operations, since they lack 
sufficient funding from their member states. Ambitious plans for 
coordinating peacekeeping and peacebuilding missions are still in the 
early stages of being operationalized.
    In short, there is striking contrast between the AU and ECOWAS 
willingness to deploy troops and their capacity to plan and support 
such deployments. For these African organizations to play a stronger 
role in peace operations, they require baseline capacities: management 
and planning, financing, logistics and transportation, command and 
control, skilled and available personnel, and clear leadership. The AU 
and ECOWAS would also benefit from clearer concepts of operations, 
mandates, leadership qualifications and doctrine for their missions, as 
well as from more development of deployable police and other personnel.


    Outside Partners. Donor governments are looking to support 
successful efforts in Africa, and have offered bilateral support 
directly, through regional venues (e.g., the European Union, or EU) and 
via the G8 process, to leverage African national, regional and 
continent-wide capacities.\4\ The G8 nations are pledged to their 2002 
Africa Action Plan, an ambitious effort to provide bilateral funding 
and support peace and security tools in Africa, especially the ASF and 
added forces for peace operations.
---------------------------------------------------------------------------
    \4\ The G8 includes Canada, France, Germany, Italy, Japan, Russia, 
the United Kingdom and the United States.
---------------------------------------------------------------------------
    Outside partners can address some needs (e.g., logistics and 
transportation support). Other areas require development of skills 
within the organizations (e.g., command and control, leadership) and 
support from member states. Support from the West includes military 
training, such as the recent French-led RECAMP exercises, which 
involved 1,800 troops from 12 African nations, as well as training 
programs run by the United Kingdom, Norway and the United States.
    ECOWAS and the AU have had difficulty responding to outside offers 
of assistance, however, and often partner countries can be unsure how 
to approach them. Bilateral donors could improve their impact with 
better coordination of competing bilateral efforts to train and equip 
African forces, which can lack coordination, be duplicative, and not 
focus on where real gaps exist. A headquarters data base and tracking 
system to handle incoming offers of financial, material and personnel 
support could be useful for partner countries, African organizations 
and the United Nations.

                   II. LINK TO INTERNATIONAL EFFORTS

    How do African regional organizations and operations fit within the 
context of international efforts?


    African organizations are taking on a role in peace operations 
where few other multinational organizations act. NATO and the EU, for 
example, have only recently become active in Africa, with NATO support 
to the AU mission in Darfur and the EU authorizing a peacekeeping 
operation, Operation Artemis, led by the French to help stabilize the 
town of Bunia in the DRC in the summer of 2003. The primary 
organization with a role in Africa is the United Nations.

    The Prominence of Africa in U.N. missions. Africa dominates the 
U.N.'s peace operations agenda. Seventy-five percent of U.N. 
peacekeepers today are in Africa. The United States and other members 
of the Security Council have approved an unprecedented number of 
complex, Chapter VII peacekeeping operations since 2003, adding African 
operations in Liberia, Cote d'Ivoire, Burundi, and most recently, 
Sudan. The Security Council has also tripled U.N. forces in the DRC 
since 2000.
    The U.N. manages nearly 80,000 personnel around the world with a 
headquarters staff of about 600 people in the Department of 
Peacekeeping Operations (DPKO). While overstretched, the U.N. still has 
more political leverage and organizational reach to support peace 
operations and run multiple efforts simultaneously than any other 
organization. The U.N. has programs related to relief, development, 
health, and peacebuilding, for example. No African group has this 
breadth or the ability to yet leverage peacebuilding efforts, which are 
needed to sustain post-conflict security and support rule of law. This 
role continues to require U.N. engagement.

    UN Collaboration with Regional Efforts. With the U.N. peacekeeping 
budget at about $4 billion (and growing), the benefit of collaboration 
between African organizations and the U.N. is clear. Some progress has 
been made. The United Nations has held high-level meetings on regional 
cooperation; the Security Council has identified Africa as a priority; 
and varied U.N. initiatives have looked at collaboration. Last year the 
Secretary General's High-level Panel on Threats, Challenges and Change 
urged improving U.N. relationships with regional groups, developing a 
10-year effort to support African regional capacities, and considering 
the provision of U.N. stocks and funding, to African-led operations.\5\
---------------------------------------------------------------------------
    \5\ A More Secure World: Our Shared Responsibility, Report of the 
High-level Panel on Threats, Challenges and Change, the United Nations, 
December 2004, page 85. The Panel suggested collaborations ranging from 
information exchanges to co-training of civilian and military personnel 
to the use of NATO to help train and equip regional organizations.
---------------------------------------------------------------------------
    The U.N. has helped match countries offering troops for African-led 
operations with countries that can provide airlift to deploy troops, 
and assisted with mission planning. For the AU mission in Darfur, the 
U.N. Secretariat provided unusually strong mission planning support 
after the Security Council approved that role via a unique U.N. special 
political mission.
    So far, however, collaboration is ad hoc. The United Nations is 
designed and funded to focus on U.N. operations rather than those led 
by other multinational groups--even when such missions are authorized 
or welcomed by the Security Council--which makes collaboration more 
difficult.

    Getting Serious: Create a Plan. The U.N. needs two tools. First, 
the U.N. needs a strategy for providing support to regional 
organizations such as the African Union. Second, the U.N. needs a 
mechanism to trigger support and a means to provide it consistently.
    This is straightforward. The strategic vision already is the 
working notion of many U.N. member states: create an international 
architecture of capacity for peace operations, and adopt an ``all boats 
rise'' approach to regional groups who are willing to take on missions 
relative to their capacity. The Security Council already has a trigger 
that could be brought to life: citation of Chapter VIII of the U.N. 
Charter, which recognizes the role of regional actors. Finally, the 
means is fairly simple: add a few personnel to the U.N. Secretariat 
whose job it is to plan and work with regional organizations 
effectively.
    There are plenty of areas ripe for better collaboration. The U.N. 
could help facilitate improving AU and ECOWAS headquarters capacity, 
with a focus on mission planning and support. Other areas include: use 
of logistics sites (such as the U.N. Logistics Base at Brindisi and 
African depots); development of the African Standby Force capacities; 
integration of participation in the U.N. Standby Arrangements System, a 
data base of national capacities of member states; design of pre-
deployment training; systems for hand-offs between African-led and 
U.N.-led operations; sharing of lessons learned; use of early warning 
and analytical information in Africa; harmonization of national 
training and doctrinal materials; identification of command and control 
issues; and coordination of funding.
    In many areas, the continuing U.N. effort to modernize and reform 
its peacekeeping capacity is instructive. As U.N. missions have grown 
in numbers, size and complexity since 1999, the U.N. has scrambled to 
fill shortages in available, well-trained military and civilian 
personnel, funding, ready equipment and logistics. Lessons could also 
be learned from NATO, the EU and other member states.

                 III. U.S. LEADERSHIP AND POLICY ISSUES

    The United States and other developed states are deciding how best 
to support peace operations and related efforts, as well as allocate 
resources to African-led efforts, the U.N. and other multinational 
operations, and their own initiatives to address such conflicts and 
transitions to peace.


    U.S. Approach. Since the end of the cold war, the United States' 
only major peacekeeping role in Africa has been in Somalia. The U.S. 
remains very cautious about participating in peace operations. With 
more attention after 9/11 to preventing state failure, helping prevent 
terrorism, and post-conflict reconstruction, U.S. policy has focused on 
supporting other actors to conduct and manage peace operations. There 
are four major approaches:


  <bullet> Training African Forces. The U.S. has trained African 
        military forces, primarily through the African Contingency 
        Operations Training and Assistance (ACOTA) program, which began 
        in 2002 and followed the earlier African Crisis Response 
        Initiative. That program is expected to expand as part of the 
        new Global Peace Operations Initiative (GPOI), which aims to 
        train roughly 75,000 troops worldwide, with two-thirds in 
        Africa.

  <bullet> Bilateral Support to Operations. The U.S. has provided some 
        bilateral assistance to African-led multinational operations in 
        Africa, such as support to ECOWAS forces in Cote d'Ivoire, 
        providing airlift to help Ethiopians deploy with the AU into 
        Burundi, and offering contracted support for AU forces in 
        Darfur today.

  <bullet> Direct Assistance to African Organizations. The United 
        States has provided some support to regional multinational 
        organizations, such as funding a U.S. advisor at ECOWAS 
        headquarters.

  <bullet> Funding of U.N. Peacekeeping Operations. As a member of the 
        Security Council, the U.S. supports U.N. peace operations and 
        pays a percentage of the U.N. peacekeeping budget.


    All of these programs are solid approaches to security challenges. 
But the State Department is chronically faced with difficult choices 
about resources due to its limited funding. U.S. budgets for these 
programs have not kept pace with the dynamic growth in African-led 
efforts, U.N. operations, and the need to accelerate support to such 
efforts. One exception is GPOI, which may bring substantial new 
resources to bear in the region, especially if it supports regional 
organizations and their operations, as well as training. Even so, the 
United States is unlikely to play a major role in this area of African 
security without more support for these programs.


    U.S. Programs & Funding. Within the State Department budget, two 
accounts before the committee resource the current U.S. approach and 
deserve support:


  <bullet> The Voluntary Peacekeeping Operations (PKO) account, 
        requested at $196 million for fiscal year 2006 (FY06), is the 
        primary source of U.S. support to regional efforts and 
        organizations worldwide. Funding for the African Regional 
        account is requested at about $41 million, to provide support 
        to African operations, regional initiatives and African 
        organizations, an amount insufficient to meet U.S. interests in 
        this area. Also requested within this account is $114 million 
        in funding for the Global Peace Operations Initiative, with 
        activities in Africa including the ACOTA program, for training 
        of African forces.

  <bullet> The Contributions for International Peacekeeping Activities 
        (CIPA) account, requested at $1.036 billion for FY06, provides 
        the U.S. share of contributions for UN-led peace operations. 
        The request is less than the $1.3 billion projected as needed 
        for the coming year--before taking into account the U.N. 
        mission in Sudan, new or expanded missions. This budget lacks 
        room for initiatives that invest in capacity-building and long-
        term reform efforts, which limits the U.S. ability to promote 
        such reforms at the United Nations or within specific missions. 
        To avoid new arrears for operations we support, Congress also 
        needs to lift the ``cap'' on payment of our U.N. peacekeeping 
        share, and realign our funding with the U.N. assessment rate we 
        negotiated and agreed to pay.


    Enough Support? When one considers all these two accounts are 
trying to accomplish in Africa, they are an excellent investment. Even 
in a time of limited budget resources, however, this funding is less 
than needed to meet our interests in the continent most faced with 
post-conflict operations. The PKO Africa Regional funding could easily 
be doubled for good use, such as providing some of the $50 million 
needed to support the AU in Darfur, which many in Congress have sought 
to provide. The U.S. would also benefit and maximize its impact if the 
State Department office for the Coordinator for Reconstruction and 
Stabilization was fully supported and funded (which it is not).
    The administration is also increasing U.S. training for counter-
terrorism activities in Africa, first through the Pan Sahel Initiative 
and more recently through the Trans-Saharan Counterterrorism 
Initiative. Both programs offer training to African militaries in areas 
that include skills useful for peace operations. At the same time, the 
U.S. has cutoff our International Military Education and Training 
(IMET) funding to some African countries, including South Africa, 
further reducing our military-to-military relations and preventing 
their leaders from participating in peacekeeping seminars hosted by the 
U.S. War Colleges and related programs. This is counterproductive to 
our goals.


    See the Bigger Picture. As Africa draws greater U.S. resources and 
attention, a better strategic vision is needed to many disparate 
programs and objectives. This committee does not benefit from a single 
source of information on the varied U.S. efforts, put in the context of 
parallel international efforts. To understand where U.S. policy is 
leading us, this committee would be well-served to ask for a 
comprehensive review of U.S. security assistance in Africa, of U.S. 
funding for peacekeeping efforts and related U.S. counter-terrorism 
accounts, as well as the rationale for these programs, and hopefully, 
how they are coordinated and working together toward a shared strategic 
vision.


    Sudan. In Sudan today we see an on-going crisis in Darfur, where 
the U.S. declared that genocide has occurred. Roughly two million 
people have been forced from their homes. The international community 
has supported deployment of peacekeepers in Darfur by the African 
Union, recognized as the only force likely to be acceptable to the 
government of Sudan.
    By all accounts, the AU has achieved a great deal, providing eyes 
and ear on the ground and carrying out important work to report on 
cease-fire violations, offer presence and deter violence in the areas 
they are deployed, bolstered by Western support and funding. Yet the AU 
force is primarily an observer force with some deterrent ability. Their 
mandate gives them only a limited ability to intervene on behalf of 
civilians and offer them protection. Even as the AU operation grows to 
nearly 7,000 personnel, the force is too small and ill-equipped to 
effectively cover the area of Darfur. The peacekeepers there are 
hampered without greater mobility and communications. In short, the AU 
force is not a force prepared or equipped to help bring stability to a 
region with ongoing conflict and a tremendous humanitarian crisis.
    The U.S. has argued strongly for peace in Sudan and in Darfur, and 
backed up the AU troops with funding and logistical support. We see 
renewed political attention with Deputy Secretary Zoellick's recent 
trip to Darfur. The U.S. supported a U.N. team to work with the AU to 
develop its plans, including Americans with experience and practical 
expertise. The U.S. has helped keep world attention on the crisis and 
organized with others governments to identify financial and materiel 
needs of the African Union. But no matter how much support the U.S. 
offers the African Union--and we could offer much more--the AU mission 
is fundamentally ill-suited to act as much more than a monitoring force 
in the region.
    In short, the AU can do extremely well but still fail to solve the 
larger problem of violence against civilians in the region. No one 
wishes to see the AU fail, especially in a mission where it has staked 
its credibility. Until a political settlement takes hold, the AU force 
needs to be backed up by a credible deterrent against continuing acts 
of violence by the Janjaweed, the Government of Sudan and the rebels. 
These measures would also support humanitarian efforts, including the 
return of refugeesiind those displaced by the war to their homes. This 
job requires the mobility, command and control, support and credibility 
of a well-trained coherent military force.
    Many options have been offered. Proposals include doubling the AU 
force and backing it up with better equipment, transportation, 
communications, and a credible military deterrent; creation of a no-fly 
zone to deter and police incursions; stationing of a rapid reaction 
force able to respond on short notice to attacks; and development of a 
NATO bridging force to support the AU better. Such options require 
action by the Security Council, clearly not an easy task. Nevertheless, 
the Council could use expansion of the current U.N. peacekeeping 
mission in Sudan to address the situation in Darfur. Otherwise, we need 
to be honest that the AU will continue to be limited in what it can do 
in Darfur. Where else in the world would we ask a new multinational 
organization with little experience to lead a mission that would be 
challenging to NATO?


    A few trends are clear. There is genuine growth in African 
ambitions and willingness to deploy peacekeeping forces. There is 
greater multinational engagement in Africa, especially through the 
United Nations, which needs to be developed further. And there is 
increased support from developed states and the U.S. to support African 
capacity-building. The challenge is to support and leverage this 
political energy into tangible results.


    Strengthen U.S. Tools. The United States has a vital role to play 
in Africa and in peace operations. We will benefit from increasing our 
funding of U.S. initiatives, especially those supported through the 
State Department's PKO and CIPA accounts, to train, support, and 
enhance African peacekeeping missions. We can and should offer 
political and materiel resources to Africa organizations and 
operations, to support lead countries and leaders in Africa, and to the 
U.N. and other multinational efforts to build capacity and a better-
working international capacity. The U.S. also should take a leadership 
role in strengthening the capacity and effectiveness of the AU mission 
in Darfur.


    Understand U.S. Strategy and Policy. This committee could benefit 
from a central source of information on the funding and programs in 
Africa in this area, since programs are spread across offices and even 
Departments. The committee should request a review of U.S. security 
assistance to Africa, including support for regional capacities, 
training and bilateral aid for peace and stability operations. This 
review should be put in the context of U.S. strategy toward Africa, to 
help consider policy options.


    Create a Mechanism to Enable Better U.N. Collaboration with 
Regional Groups. U.N. mechanisms to work with regional organizations 
are still in their infancy. Even citation of Chapter VIII by the 
Security Council does not trigger U.N. collaboration. This should 
change. The U.N. needs a strategy and formal means of providing support 
to organizations such as the African Union and ECOWAS on a consistent 
basis. To identify these areas of potential support, the United States 
should urge the U.N. to conduct a full assessment of how it could work 
more effectively with African organizations in the early planning and 
startup phase of an operation; during the initial deployment and as 
forces ramp up; and, when appropriate, during hand-offs of leadership 
from regional to U.N. peace operations. U.N. member states should agree 
to use Chapter VIII of the U.N. Charter to trigger real support to 
regional peace operations authorized by the Security Council. On a 
case-by-case basis, the Council could also direct the use of assessed 
funding through the United Nations to support these missions.
    Thank you.

    Senator Martinez. Well, thank you both for excellent 
remarks and very insightful comments. I think you have hit on a 
lot of key issues. With the time we have remaining, what we 
might just do is have a quick round, each of us, and we might 
repeat it again to make sure each of us gets a few questions.
    Ms. Holt, I want to just follow up with you as to whether 
you--and I do not think you discussed this specifically, but 
the African Standby Force, that concept. Please speak to that 
if you would.
    Ms. Holt. The African Standby Force is an idea that is the 
backing up of the African Union. The African Union is now going 
to be taking on missions that range all the way from mediation 
to intervention against genocide. Their concept is to create a 
standing force within Africa based in each of the five regions 
within Africa. It is ambitious. They wish to be operational by 
2010. At this point ECOWAS is probably the most advanced. They 
have endorsed an idea for a standby force within the region. 
The last time I looked at their proposal it was about 6,000 
troops. IGAD I think may be involved with EASBRIG, the eastern 
task force; and SADC in the South, I have heard that they are 
moving forward. But the reality is that these troops right now 
are not sitting at home ready to go.
    I do think there is a question of connectivity between each 
of the regions and the African Union itself and the 
headquarters. So I think it is still evolving. I think it is 
something that the G-8 has endorsed with its Africa Action 
Plan, that the United States is also supportive of. But I think 
we are going to have to make a better connection between our 
training of troops, their headquarters capacity, and how they 
work within the continent to see this come to the fore.
    Senator Martinez. Let me see. I am going to let you get a 
question or two in. I think we are going to be called any time, 
and then I will come back.
    Senator Feingold. Thanks, Mr. Chairman.
    To either of you or both of you, what obstacles are there 
to AU intervention in a political crisis? Does the AU have to 
wait for states to formally request intervention to restore 
peace and security or gain member consensus before restoring 
peace and stability in a crisis? What role does NEPAD's 
voluntary African peer review mechanism evaluation play into 
intervention? I just want a sense of how that works.
    Ms. Cooke. Sure. I think currently one of the limitations 
of the AU is that intervention in particular crises is still 
hinged to a large extent on the inclination of particular 
leaders, so that when Mbeke decides or Obisanjo decides they 
can really drive that intervention. But if there is not that 
kind of high-level leadership, it is often much slower to come 
together. That said, there are many energetic African leaders 
and Cunairy, who is the current chair of the AU commission, is 
a superb statesman, former president of Mali, and I think we 
can see more activism there. However, it does go to the issue 
of institutionalizing and kind of setting standards for 
intervention and so forth. The Africa peer review mechanism, 
which grew out of NEPAD, which is part of or under the auspices 
of the AU, but it is somewhat parallel, does not play much of a 
role in these mediation efforts.
    This is a mechanism to which countries voluntarily submit 
or join. They first undergo an internal review of their 
governance standards, then open it up to the broader group, 
come up with a policy for redressing whatever their weaknesses 
may have been. It is a voluntary system so far. Two countries 
have undergone the review. Twenty-three have signed up for 
voluntary review.
    Senator Feingold. Thank you.
    Ms. Holt.
    Ms. Holt. I would just concur with Ms. Cooke's statement. 
Maybe just to add, if you mean intervention in the more 
military sense, theoretically at least the African Union can 
intervene, particularly in the case of genocide. It is the (h) 
clause in their Constitutive Act. But it recognizes that to do 
so it would probably ask a member state to lead an 
intervention, and obviously we have not seen this yet on the 
continent. So I would just flag that as something still to be 
developed. I cannot offer more than that on that point.
    Senator Feingold. Thank you, Mr. Chairman. Thank you.
    Senator Martinez. They have called us to a vote, but I want 
to just ask one last question if I may. Thank you, sir, for 
your participation. The interaction between NEPAD and AU, can 
you just deal with that and if you can in brief moments help me 
a little bit with that.
    Ms. Cooke. Sure. NEPAD grew up--it was kind of the brain 
child of three or four key African leaders--President Mbeke of 
South Africa, President Obisanjo of Nigeria, President 
Boutaflica of Algeria, and President Wadd of Senegal. It grew 
up at the same time that the Organization of African Unity was 
reinventing itself as the African Union. So initially it was 
not meant to be part of the African Union, but the two have 
merged and it is somewhat under African Union leadership. So I 
think it is all part of this momentum of kind of taking greater 
responsibility that happened within the AU. NEPAD is another 
expression of that. The two are more closely merged than they 
were originally.
    Senator Martinez. One of the things we did not get to 
today--and I would love to have enough time for us to --first 
of all, I want to thank you both. You have done a great job and 
you have really added to our discourse greatly. So I appreciate 
your insights and your great knowledge and I wish we had more 
time to expand on all of this. But one of the things I wanted 
out of this hearing is for us to discuss all the good things 
that are happening. Unfortunately, we have talked too much 
about, still like always we do, about some negative aspects of 
it. But there is much going on that is good. I know that 
progress is being made in the fight against AIDS and I know 
that our government has played I think a leading role in the 
world. I was also pleased recently to have had an opportunity 
to talk with Prime Minister Blair and his great interest, right 
before Gleneagles, and his commitment to renewed effort. I hope 
we could on the next occasion talk about economic development, 
about growth, about ownership opportunities, about business 
creation, about trade and things of that nature. I would hope 
it would come to a day when a hearing like this would be held 
and we would talk about how the AU is managing all of the trade 
agreements that are being made between the countries. So 
anyway, with that hope and that bright future, I thank you for 
your participation today and look forward to coming together 
again another day to talk some more about this topic.
    Thank you very much and the hearing is adjourned.


    [Whereupon, at 3:41 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              



              Additional Material Submitted for the Record

          Response of Hon. Jendayi Frazer to Written Questions
                   Submitted by Senator Richard Lugar

    Question. Why hasn't a permanent ambassador been named to Ethiopia? 
How long has it been? When will the President name a permanent 
ambassador for Ethiopia? Has our ambassador to Ethiopia ever been a 
non-Foreign Service experienced official?

    Answer. The White House remains engaged in identifying a chief of 
mission candidate for Ethiopia.
    While the majority of past U.S. ambassadors to Ethiopia have been 
career Foreign Service Officers, there have been three non-career U.S. 
ambassadors to Ethiopia: Joseph Simonson served 1953 to 1957; Edward M. 
Korry served 1963 to 1967; and E. Ross Adair served 1971 to 1974.
    Ambassador Brazeal departed Ethiopia on September 3, 2005. Since 
that date, Ambassador Vicki Huddleston, a retired career member of the 
Senior Foreign Service with the rank of Career Minister, has very 
capably represented the U.S. Government in Ethiopia as Charge 
d'Affaires.

    Question. Although electoral advances have been made since the last 
election the brutality remains and the reform of the country's 
institutions is weak.
    What are the determinant factors in U.S. policy toward Ethiopia 
with regard to the war on terror, cooperation on the Eritrean border 
dispute, economic, social, and political reform?

    Answer. United States national security and national interests 
guide U.S. policy determinations on Ethiopia. Major U.S. objectives 
with regard to Ethiopia include countering any terrorist threats in the 
region; enhancing regional peace and stability; promoting 
democratization, rule of law, and respect for human rights; supporting 
economic prosperity; and providing humanitarian assistance to mitigate 
human suffering. Helping the people of Ethiopia address the effects of 
HIV/AIDS is also a key U.S. interest, as Ethiopia is one of 15 focus 
countries for the President's Emergency Plan for AIDS Relief (PEPFAR). 
These objectives are interrelated and one objective does not supercede 
others.
    In all of these sectors, U.S. interests guide the policy formation 
process. The pursuit of each of these objectives reinforces the other 
by helping create an environment that supports a stable Ethiopia, 
prevents the conditions that breed and provide safe haven for 
terrorists, and builds our partnership with the Ethiopian government in 
addressing common threats. Our policy formation, however, must factor 
in how our objectives fit with Ethiopia's objectives, how much leverage 
the United States holds with Ethiopian decisionmakers, and in what 
areas we may be most able to achieve progress at any given time.
    Ethiopia has been an active and receptive partner in the global war 
on terrorism. Our common objectives enable the United States to work 
closely with Ethiopia in pursuit of countering the terrorist threat in 
the region and building local capacity in support of that objective. 
Ethiopia is an active participant in the African Contingency Operations 
Training Assistance (ACOTA) program, and is one of the continent's 
major contributors to multilateral peacekeeping operations.
    With regard to the Ethiopia-Eritrea border, the United States and 
Ethiopia agree broadly on the need for long-term regional stability, 
but may disagree on the tactics in pursuit of that end. We recognize 
that the parties themselves have determined that the Eritrea-Ethiopia 
Boundary Commission's (EEBC) decision shall be final and binding, and 
that it is incumbent on the parties to reach a lasting solution to the 
border standoff. Bilaterally, and through the United Nations, we have 
called on Ethiopia to start the implementation of demarcation, by 
taking the necessary steps to enable the Commission to demarcate the 
border completely and promptly and without preconditions. The 
Government of Ethiopia has affirmed that it will pull back troops 
deployed near the Ethiopian-Eritrean border to positions held in 
December 2004, as called for in U.N. Security Council Resolution 1640. 
Prime Minister Meles has also publicly pledged Ethiopia's full 
cooperation with the United Nations Mission for Ethiopia and Eritrea 
(UNMEE), the peacekeeping mission monitoring the Temporary Security 
Zone along the border.
    The United States has encouraged Ethiopia to take steps to 
liberalize its economy since the Ethiopian People's Revolutionary 
Democratic Front government came to power in 1991. There has been some, 
albeit slow, progress on the economic front--robust economic growth 
rates, progress in the investment climate, improved revenue collection, 
etc.--as a result of our economic assistance programs and U.S. and 
international advisors. We have been able to assist the Ethiopians to 
strengthen and diversify their economy.
    Our interests in the areas of social and political reform include 
protection of human rights, fostering press freedoms, opening of 
political space for dialog, and the expansion of educational and health 
services.
    While the dynamic and open campaign period in the run-up to the May 
2005 elections showed promise, irregularities with the conduct and 
vote-tallying portion of the elections highlighted the fragility of 
this progress. Nonetheless, the opposition made tremendous gains as 
evidenced by the numbers of elected to Parliament. The post-election 
political violence and harassment of opposition leaders and supporters 
stand out as issues of particular concern in policy formulation 
deliberations. We are strongly encouraging the Government of Ethiopia 
to respect the human rights of all its citizens and to work with the 
opposition to ensure stability and an inclusive government.
    The breadth of U.S. engagement with a country such as Ethiopia is 
great and factors in policy determination are complex. U.S. relations 
with Ethiopia have entered their second century and it is a 
relationship that the United States values. The United States and the 
people of Ethiopia share many common objectives and values and there 
are significant areas of mutual interest on which we can collaborate. 
In each of the realms of policy consideration noted in this question, 
however, there are areas for improvement. Some are greater than others, 
but these are areas in which we continue to engage. The United States 
continuously re-evaluates this relationship and neither takes it for 
granted nor stands by it at all costs. As such, we continue to engage 
the range of stakeholders in Ethiopia and within the United States. We 
value the input and perspective of each of these stakeholders and 
appreciate the Congress's close attention to this complex relationship.

    Question. Is the U.S. policy one of advising the opposition to wait 
until the next elections to challenge for control of the legislature 
and executive?

    Answer. Active political debate and representation of the range of 
positions is key in a democracy. United States policy is that the 
opposition, as well as the governing party, should pursue their 
political efforts through legal and constitutional means. All political 
parties should participate actively in the political process, but 
resorting to violent actions is unacceptable. The United States has 
consistently called on Ethiopian opposition parties to take up their 
elected seats in parliament and in the regional councils to represent 
the will of the public that voted for them. It is incumbent on these 
individuals to represent an active and vocal alternative voice to the 
governing party. The United States has also called for the Government 
of Ethiopia to release political detainees and to ensure that detained 
opposition leaders be accorded timely due process in accordance with 
the constitution.
    The National Electoral Board of Ethiopia certified the final 
results of the May 2005 parliamentary elections. While there were 
significant irregularities in the conduct and compiling of results from 
these elections, the Carter Center's election observation team has 
stated that the majority of the results were credible. While the May 
2005 elections were far from perfect, they do represent a milestone in 
Ethiopia's progress toward democratization. For the first time in 
history, average Ethiopians truly believed that they had a choice in 
their national leadership, opposition parties were able to campaign in 
cities and the countryside, large public demonstrations were permitted, 
and all parties were able to convey their platforms through the media. 
As a result, the total opposition representation in parliament 
increased from 12 seats in 2000 to 174 seats in 2005. If any party 
objects to these results, the United States encourages them to pursue 
their complaints through established legal channels.
    Beyond this, the United States persists in pressing the Ethiopian 
government to open political space to allow the opposition to play a 
meaningful and active role in parliament, to enhance the transparency 
and capacity of the National Electoral Board, to end detentions of 
opposition supporters, and institutionalize the democratic gains 
evidenced in the campaign period. This can only happen successfully 
through the full and active participation of opposition parties in this 
process.

    Question. What assistance is the U.S. prepared to offer for 
Ethiopians? What assistance will be made to those building on 
democratic gains? What assistance will be directed to the governing 
regime?

    Answer. The United States has been very active in coordinating with 
the international community regarding assistance to Ethiopian governing 
and opposition parties to support the democratization process. 
Collective statements by the United States and other members of the 
international community calling for non-violence, encouraging the rule 
of law, and confirming the goodwill of both the Ethiopian government 
and opposition aided both sides to reach out to the other in the 
aftermath of the parliamentary elections to stem the violence and 
restore order.
    Since the release of the final results of the May 2005 elections, 
by lending its good offices, the United States has played a key role in 
bringing the government and opposition together to bridge their 
differences in resolving the political stalemate. Because of this 
active diplomacy, the government and opposition came together for talks 
in late-September and early October, and a period of peaked political 
tension passed. U.S. encouragement resulted in major portions of the 
Ethiopian opposition taking their seats in parliament as an active 
alternative voice to the governing regime. Active U.S. engagement has 
also succeeded in the appointment of an independent commission to 
investigate the political violence of June and November 2005. We 
continue to push the Ethiopian government to accord expeditious due 
process to opposition leaders under arrest and to reach out to the 
opposition to move forward with reconciliation.
    The United States has also coordinated with the broader 
international community in identifying assistance to support the 
democratic gains that these talks have achieved. The United States, 
working through the U.S. Agency for International Development (USAID), 
is currently providing assistance to new members of parliament on 
parliamentary procedure and legislative drafting to build their 
capacity to serve as strong representatives of their constituents. 
Following U.S. consultations with European partners, the international 
community has offered expert assistance from established parliamentary 
democracies on parliamentary rules of procedure to assist both the 
Ethiopian government and opposition in reviewing a major impediment to 
active opposition participation in parliament--rules changes governing 
the tabling of agenda items in parliament.
    The U.S. Government is currently examining its fiscal year 2006 
resources to determine the most appropriate use of technical and 
financial assistance to widen political space in Ethiopia. The U.S. 
Embassy in Addis Ababa stands prepared to provide media training and 
capacity building for both state-run and private media institutions in 
Ethiopia. Additionally, the United States is willing to provide 
technical assistance in any efforts by the Ethiopian government and 
opposition to develop new media laws and a media code of conduct.
    Finally, the United States stands prepared to resume assistance to 
the National Democratic Institute, International Republican Institute, 
and/or IFES, in the event that they are permitted to return to 
Ethiopia. These organizations have the unique qualifications to provide 
technical assistance to the National Electoral Board of Ethiopia on the 
administration of elections, to civil society organizations on election 
observation, and to political parties to promote capacity development.

    Question. The European Commission and the Carter Center have 
denounced recent elections in Ethiopia that were flawed by intimidation 
of opposition supporters, beatings, and killings of opposition 
candidates, and rigged ballot counting. Our own IRI and NDI and IFES 
observers were expelled prior to the election. Despite similar 
circumstances in Ukraine where a new election was called for by the 
international community, Ethiopia has not been encouraged to do so.
    Is there a double standard here in not encouraging similar steps? 
Why or why not? What message is being sent to Ethiopia and the region?

    Answer. There is no double standard. While the expulsion of NDI, 
IRI, and IFES was regrettable and protested by the United States, the 
Carter Center was able to field election observers to follow the May 15 
parliamentary elections. Furthermore, the Carter Center was able to 
keep observers in place throughout the election complaints review 
process and the August 21 elections in the Somali region and re-runs of 
contested seats.
    The Carter Center has not denounced the May 2005 parliamentary 
elections in Ethiopia. While the Carter Center did highlight concerns 
and cases of intimidation and electoral irregularities, it also stated 
that these elections ``offered Ethiopian citizens a democratic choice 
for the first time in their long history.'' While the Carter Center did 
note that some results based on the complaints review process lacked 
credibility, it noted that the ``majority of the constituency results . 
. . are credible and reflect competitive conditions.'' The United 
States believes that the Carter Center's assessment accurately reflects 
the conduct of this election.
    The campaign period and many aspects of the May 2005 elections did 
show significant improvements over previous Ethiopian elections. 
Opposition candidates had an unprecedented ability to campaign actively 
and convey their messages through state media, and the record turnout 
and heavy pro-opposition vote show that the public truly felt that it 
had a choice in these elections. Certainly, irregularities were noted 
throughout the process, and these are issues that should be addressed 
by the Ethiopian people and political parties as the country further 
entrenches its democratic gains. The United States has encouraged 
candidates for office to challenge the election results which they 
dispute through existing legal channels and rejects pursuit of 
unconstitutional means as an acceptable strategy.

    Question. The Meles regime has been in power for 14 years and 
during this time there has been little economic progress in Ethiopia.
    Should the U.S. make economic aid contingent on land reform, 
privatization of nationalized businesses, and elimination of communist 
style economic policies?

    Answer. Since the early 1990s, Ethiopia has pursued a market-
oriented economic development strategy. It has eliminated 
discriminatory treatment of the private sector in areas such as taxes, 
credit, and foreign trade, and worked to simplify bureaucratic 
regulations and procedures. Ethiopia has participated in World Bank and 
International Monetary Fund structural adjustment programs that 
promoted reforms in macroeconomic policies and procedures, including 
public expenditure reviews, conservative management of the money 
supply, tax reforms, and customs and civil service reforms. Over 220 
properties have been privatized since 1994, worth $405 million, though 
the privatization effort has slowed since 2001. In 2003, Ethiopia 
formally applied for membership to the WTO.
    While Ethiopia remains one of the world's poorest countries, the 
economic assistance that the United States provides to Ethiopia is 
contributing to the country's efforts to prevent famines and to promote 
economic stability and prosperity. The United States continues to 
encourage economic sector reforms by providing economic assistance that 
contributes to establishing an environment conducive to private sector 
led economic growth. With U.S. Government assistance, progress has made 
in the areas of reforming tax administration and operations, reducing 
the number of days to register a business, and improving land tenure 
security through land certification.
    Other major non-humanitarian U.S. assistance programs focus on 
improving community level primary health care and primary education, 
especially for girls and mothers, fighting HIV/AIDS, increasing food 
security for households, enhancing agricultural productivity, capacity 
development for local government transparency, increasing exports and 
jobs, and counter-terrorism assistance. The U.S. emphasis on project 
support, rather than budget support, ensures that economic aid is 
targeted to bring about specific results on the ground.
    Despite its macroeconomic challenges, Ethiopia has seen some 
notable economic progress in recent years. The Ethiopian economy grew 
by 11.6 percent in 2004. In September, a British publication rated 
Ethiopia first among African countries for cost effectiveness for 
foreign direct investment, noting the country's inexpensive labor and 
suitable infrastructure. The economy's dependence on agriculture has 
decreased notably. Industry grew by 5.1 percent per year between 1992 
and 2004, while the service sector achieved a real growth rate of 6.8 
percent per year during this period. Ethiopia has even begun attracting 
international investors away from other African countries in areas such 
as floriculture. The Ethiopian government introduced a value-added tax 
in January 2003, which has broadened the tax base and increased 
revenues. To attract foreign investment, Ethiopia has reduced the 
minimum required level of investment from $500,000 to $100,000 for 
foreign firms and lifted minimum capital requirements altogether for 
those exporting over 75 percent of their output.
    The Government of Ethiopia is actively engaged in supporting 
Ethiopia's participation in the African Growth and Opportunity Act 
(AGOA) and has undertaken a number of programs and policies to promote 
exports, including a government credit facility, provision of serviced 
land, and tax incentives. The U.S. Government is working to support 
Ethiopia's participation in AGOA through outreach/promotion efforts and 
technical assistance to the private sector.
    Greater economic reforms are certainly necessary for Ethiopia to 
achieve its full development potential--whether it be continued land 
reform to allow land to be used as collateral for investment, private 
sector involvement in telecommunications, opening the country to 
foreign financial institutions, or privatizing more state owned 
enterprises. Nevertheless, the withdrawal of economic assistance--which 
promotes a healthy population and workforce, bolsters basic literacy 
and numeracy, ensures safe births, fights HIV/AIDS, promotes the 
adoption of improved agricultural production methods, provides 
assistance to chronically food insecure households, provides technical 
assistance for small-scale agricultural marketing, and greater 
transparency and good governance--would harm the Ethiopian people and 
do little to enhance economic progress.
    We believe that continued bilateral and multilateral pressure on 
the Ethiopian government to adopt economic reforms and liberalize its 
economic and investment regimes for the country's own best interest 
will yield the greatest results toward broad-based poverty reduction 
and economic prosperity.

    Question. What steps are the State Department and Bush 
administration taking or prepared to take to pressure the Meles regime 
to restore the rights of minority parties in Parliament?

    Answer. Senior United States officials have met regularly with 
Ethiopian government officials to seek fair and constitutional 
treatment of minority parties. Under Secretary of State for Political 
Affairs Nicholas Burns has specifically urged Prime Minister Meles 
Zenawi to reach out to and work with the opposition.
    Regarding the restoration of the rights of opposition parties in 
parliament, our Charge d'Affaires in Addis Ababa, and senior State 
Department officials have met numerous times with Prime Minister Meles, 
the Speaker of Parliament, and other Ethiopian officials to press for a 
reversal of the parliamentary rule changes made in July that imposed 
new constraints on opposition participation in debate. Prime Minister 
Meles has responded that he is willing to explore this matter; the 
subject currently stands as an agenda item for on-going government-
opposition talks.
    Ambassador Huddleston and Deputy Assistant Secretary of State Don 
Yamamoto have encouraged the Speaker of Parliament to set aside at 
least one committee chairmanship for the opposition to fill. The 
Speaker has expressed openness to this suggestion.
    With our encouragement the Speaker of Parliament has agreed to 
permit an opposition whip to participate in deliberations on setting 
the parliamentary agenda along with the Ethiopian People's 
Revolutionary Democratic Front's whip and the Speaker.
    Recent parliamentary debates have shown that those opposition 
members of parliament who have taken their seats have had an 
opportunity to participate in debates on agenda items.
    With respect to minority parties outside of parliament, there has 
been little progress. While representatives from all parties from which 
candidates were elected have taken their seats, a significant portion 
of MPs-elect from the Coalition for Unity and Democracy (CUD) have 
continued to boycott parliament. In early November, the Ethiopian 
government detained senior CUD officials for advocating a change in 
government through extra-constitutional means. CUD officials have 
complained since August that their supporters were being harassed by 
government and security officials, that their leaders were being 
followed, that the government had shut down various CUD offices in 
rural areas, and that thousands of CUD supporters were being detained 
by the police. The United States has taken every opportunity to 
investigate these allegations and protest such actions to the Ethiopian 
government. We have called for the government to release all political 
detainees, and either charge and accord due process to, or release, 
detained CUD officials. We have called for the Ethiopian government to 
cease all harassment of opposition officials and supporters. We have 
called on all parties to abide by the rule of law.
    We will continue to push the Ethiopian government to permit 
opposition parties to actively participate in all legal political 
activities, to extend greater access for these parties to state-
operated media, and to open the political space for opposition 
representatives to play meaningful leadership and minority roles in 
parliament and the regional councils to which they were elected.

    Question. Has the Ethiopian government investigated the June 8, 
2005 killing of civilians who were protesting? Why not?

    Answer. After persistent pressure by the United States, including 
the specific request by Under Secretary of State for Political Affairs 
Nicholas Burns to Prime Minister Meles Zenawi, the Ethiopian parliament 
voted on November 14 to establish an independent commission to 
investigate the election-related violence of June 8 and early November. 
Parliament approved the appointment of eleven commissioners nominated 
by the Prime Minister on December 6. The commissioners include 
religious, academic, business, and judicial leaders. The commission is 
charged with preparing a report detailing the number of deaths, the 
amount of property destroyed, and whether there were violations of 
constitutional or human rights. The commission has 90 days in which to 
produce its report.

    Question. Is the State Department doing anything to press for an 
investigation of the killing of civilians and the imprisonment of 
thousands of political prisoners?

    Answer. After persistent pressure by the United States, the 
Ethiopian parliament voted on November 14 to establish an independent 
commission to investigate the election related violence of June 8 and 
early November. Parliament approved the eleven nominated commissioners 
on December 6. Senior State Department officials have protested the 
detention of thousands of demonstrators and opposition supporters in 
meetings with Prime Minister Meles Zenawi and senior Ethiopian 
government officials in Addis Ababa and in Washington. We have called 
on the Ethiopian government to immediately release all political 
detainees. We have urged the Ethiopian government to charge those 
detainees whom it refuses to release, accord them full due process, and 
allow for access to counsel, family and international observers. The 
vast majority of those detained during and in the aftermath of the 
public demonstrations of early November have now been released.
    Prime Minister Meles publicly announced on December 13 that 
approximately 3,000 individuals would face charges in connection with 
anti-government protests that occurred in November.
    We continue to monitor the detention of opposition leaders closely 
and to press for access to them by representatives of the international 
community. Senior U.S. officials, including Deputy Assistant Secretary 
of State for African Affairs Donald Yamamoto and Charge d'affaires 
Vicki Huddleston, have met with immediate family members of detainees 
to hear their concerns. Embassy officials will attend the December 16 
court hearing of detained opposition leaders, at which we expect the 
Government to announce formal charges.
  

                                  <all>

</pre></body></html>
